<html>
<title> - Memorial Addresses and Other Tributes</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                     

                          Hon. Thomas S. Foley

       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               

                               1929 -2013




                                           

                             Thomas S. Foley

                      LATE A SPEAKER OF THE HOUSE

                                 AND A

                     REPRESENTATIVE FROM WASHINGTON

                         MEMORIAL ADDRESSES AND

                             OTHER TRIBUTES

                           IN THE CONGRESS OF

                           THE UNITED STATES

   <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
   
   
   
   
   
 
                               Memorial Addresses and

                                   Other Tributes

                        HELD IN THE HOUSE OF REPRESENTATIVES

                                     AND SENATE

                                OF THE UNITED STATES

                           TOGETHER WITH MEMORIAL SERVICES

                                     IN HONOR OF

                                   THOMAS S. FOLEY

                      Late a Speaker of the House

                                 and a

                     Representative from Washington

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

                    One Hundred Thirteenth Congress

                             First Session


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   U.S. GOVERNMENT PRINTING OFFICE
                   
                       WASHINGTON : 2014
                                           






                            Compiled under the direction

                                       of the

                             Joint Committee on Printing
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                                      CONTENTS
             Biography.............................................
                                                                      v
             Proceedings in the House of Representatives:
                Tributes by Representatives:
                    Boehner, John A., of Ohio......................
                                                                      7
                    Gohmert, Louie, of Texas.......................
                                                                      4
                    Hoyer, Steny H., of Maryland...................
                                                                      6
                    Jackson Lee, Sheila, of Texas..................
                                                                      4
                    McMorris Rodgers, Cathy, of Washington.........
                                                                      3
             Proceedings in the Senate:
                Tributes by Senators:
                    Reid, Harry, of Nevada.........................
                                                                      9
             Memorial Services.....................................
                                                                     11
                Holy Comforter St. Cyprian Roman Catholic Church...
                                                                     37
                St. Aloysius Church................................
                                                                     45
                Statuary Hall......................................
                                                                     11
                 

                                      BIOGRAPHY

               Thomas S. Foley, first elected in 1964, represented the 
             Fifth District of Washington State for 30 years. Born on 
             March 6, 1929, in Spokane, WA, the son of Judge Ralph and 
             Helen Foley, he grew up in an atmosphere rich with 
             politics (his father was an elected state superior court 
             judge for a record 35 years) that included dinner 
             conversations with then-Senator Henry M. (Scoop) Jackson. 
             Certainly, his father Ralph was an enormous influence on 
             Mr. Foley and inspired the evenhandedness and judicial 
             nature that marked his long career in Congress.
               Following the wishes of his father, a respected judge 
             and former prosecutor, Mr. Foley graduated from Gonzaga 
             Prep and attended Spokane's Gonzaga University. After 
             several years at GU, he transferred to the University of 
             Washington from which he received a bachelor of arts 
             degree and moved on to graduate from UW's law school in 
             1957.
               After completing law school, he returned to Spokane, 
             practiced law, and then joined the Spokane County 
             Prosecutor's Office. About that time of his life, he said 
             ``I had more power as a prosecutor than at any other 
             period in my life.'' Mr. Foley also taught constitutional 
             law at Gonzaga University Law School in Spokane. It gave 
             him a basis for understanding the provisions of the 
             Constitution and the reasons for each provision.
               In 1960 he joined the State of Washington Attorney 
             General's Office.
               In 1961 in a major career change he moved to Washington, 
             DC, to become a special counsel to Senator Jackson, a 
             rising political and institutional power in the Senate and 
             chairman of the Senate Committee on Interior and Insular 
             Affairs.
               In 1964 Senator Jackson recruited four young political 
             aspirants to run for the House in Washington State. It was 
             a national landslide year for Democrats. All of Senator 
             Jackson's choices won; Tom Foley's narrow victory over a 
             22-year incumbent was by far the most surprising.
               Mr. Foley's career in public service was influenced by 
             his father's traits of courtesy, patience, and a sense of 
             public responsibility. But in 1965 little did anyone know 
             that the urbane 64" young lawyer from Spokane would 
             emerge as a leading voice of congressional reform and a 
             champion of the integrity of the U.S. Constitution. His 
             rise up the ladder in what was a very tradition-laden 
             House was aided by his uncommon ability to forge a 
             following from southern conservatives, westerners, and 
             urban liberals.
               Contrary to the public perceptions about politicians, 
             Tom Foley was always a kind man who never spoke badly 
             about anyone either publicly or privately. He was almost 
             saintly in this respect, as though he had taken a vow to 
             always see the positive in people. He thought more was to 
             be gained in both life and politics by listening and 
             respecting differences.
               Assigned to the House Committee on Agriculture when he 
             was sworn in as a Congressman, and becoming its chairman 
             in 1975, Mr. Foley took a strong interest in the problems 
             of hunger across the United States. The Committee on 
             Agriculture was and remained for years a political bastion 
             of southern and rural conservatives whose main interests 
             were crops and livestock.
               In the late 1960s, when medical teams reported 
             widespread hunger and malnutrition in very poor parts of 
             the country, especially among children, Mr. Foley led 
             House efforts to expand and improve the then-very-small 
             food stamp and nutrition programs, greatly expanding and 
             spreading them nationwide. He built bipartisan House 
             support for these reforms and worked with Senators Robert 
             Dole and George McGovern to pass a battery of measures in 
             the 1970s that transformed food stamps.
               In the late 1970s medical teams returned to very poor 
             areas of the country and reported dramatic reductions in 
             hunger and the near-elimination of childhood diseases 
             caused by malnutrition. They credited the reforms Mr. 
             Foley and his Senate allies had engineered as the pivotal 
             factor behind the improvements.
               ``He was a giant,'' noted Robert Greenstein, president 
             of the Center on Budget and Policy Priorities, who headed 
             the food stamp program in the Carter administration and 
             worked closely with Mr. Foley.

               He combined intense knowledge of the program and ways to 
             strengthen it with a keen sense of political strategy. In 
             addition, he was deeply respected by both sides of the 
             aisle in a way that was unusual then and is even more 
             unusual today. He drew on all of these skills to craft and 
             pass legislation that has helped tens of millions of low-
             income Americans.

               Despite representing a giant wheat producing district in 
             a politically conservative stretch of America, Tom Foley 
             became a champion of civil liberties and respect for the 
             Constitution. He engineered the defeat of an anti-flag 
             burning constitutional amendment and worked to prevent 
             other amendments he thought harmful to the Constitution 
             such as prayer in the public schools and term limits for 
             Members of Congress. Tom Foley believed the Constitution 
             was very clear in its intent and that voters had an 
             opportunity every 2 years to limit the term of any 
             incumbent of the House or Senate running for reelection. 
             Although his views were validated by the Supreme Court 
             (U.S. Term Limits, Inc. v. Thornton), the fact that he 
             publicly became involved in a lawsuit to declare the State 
             of Washington's term limits unconstitutional was 
             politically unpopular at home. His willingness to take 
             political risks on a point of constitutional principle 
             came to play a role in his defeat for reelection in 1994.
               Mr. Foley's prominence in the leading internal reform 
             organization of the House, the Democratic Study Group, did 
             not prevent Majority Leader Jim Wright from naming him 
             majority whip, third in command of the House majority. Mr. 
             Foley was a continuation of a remarkable run of Irish 
             Americans in the leadership of the House. Like Tip 
             O'Neill, he was a large and formidable figure with a 
             bottomless well of humorous stories that served to break 
             political tensions and bring people to negotiations that 
             helped move the institution forward. It was at this time 
             that Mr. Foley had a chance to display his remarkable 
             skills in foreign affairs. He became Mr. O'Neill's point 
             man on the contentious issues of Northern Ireland and in 
             bringing about a bipartisan show of support for the Reagan 
             administration's invasion of Grenada.
               Foreign policy issues, whether about the policy or the 
             process, increasingly drew Mr. Foley's attention. He was a 
             prominent figure in the anti-Contra furor in the House and 
             opposed the first Iraq war. Ireland was also never far 
             from his mind, and he was inspired by the political 
             bravery of John Hume, later a Nobel Peace Prize winner. 
             Mr. Foley steadily worked for peace and reconciliation in 
             Northern Ireland throughout his speakership.
               His interest in foreign affairs was never far from the 
             surface and ultimately resulted in his being the only 
             Member of the House who was awarded the highest honors 
             from the most important U.S. allies: Great Britain made 
             him a Commander of the British Empire; Germany gave him 
             its Order of Merit; France conveyed membership in the 
             Legion of Honor; and Japan awarded him the Order of the 
             Rising Sun with Paulownia Flowers, Grand Cordon.
               House leaders and Members increasingly respected the 
             political skills of their whip and former caucus chair. He 
             became a fixture at Democratic conventions, serving as 
             parliamentarian until he himself became chairman of the 
             convention in 1992 when Bill Clinton was nominated for his 
             first term.
               Ever faithful to a major wheat producing constituency, 
             Mr. Foley was an unusual Democrat because he was a steady 
             supporter of trade liberalization and became essential in 
             ensuring significant Democratic support for trade bills 
             that might otherwise have been defeated. He will be most 
             remembered in this respect for moving the North America 
             Free Trade Agreement (NAFTA) through a contentious 
             Congress.
               Tom Foley seemed to move naturally to issues revolving 
             around the budget. In 1987, after being elected majority 
             leader, he became a member of the House Budget Committee. 
             Beginning with the Black Friday stock market crash during 
             the Reagan administration, Mr. Foley was present in every 
             negotiation designed to avoid the prolonged standoff that 
             now exists. He became closely involved with these issues 
             initially when he led the House negotiators in responding 
             to the issues associated with the Gramm-Rudman-Hollings 
             Act and ultimately obtaining an agreement on that 
             complicated and controversial proposal.
               In 1987 Tom Foley chaired the negotiations between the 
             Congress and the Reagan administration to respond to the 
             Black Friday stock market crash. Working with then-
             Secretary of the Treasury James A. Baker III and others, 
             that group under Tom Foley's leadership came to a 
             consensus that eased the markets and helped strengthen the 
             economy.
               Mr. Foley was an active participant in the 1990 budget 
             summit negotiations on Capitol Hill. At Andrews Air Force 
             Base it was his leadership that brought the eight leaders 
             together to work out the final agreement that the Congress 
             subsequently passed.
               Mr. Foley led the House of Representatives during the 
             first 2 years of President Bill Clinton's first term. The 
             1993 economic plan approved under his leadership arguably 
             was important in enhancing the country's economy and 
             moving toward a balanced budget.
               Like Mr. O'Neill, Tom Foley believed that the perfect 
             should not get in the way of the achievable. He was part 
             of the political generation influenced by the Presidency 
             of Lyndon Johnson and the view that half of something was 
             better than none. There was always another day and another 
             Congress to move forward and get the other half done.
               A man not prone to public anger, he reserved his 
             passions for things he thought essential to the 
             continuation of a just and prosperous nation. Hunger in 
             all its forms, oppression through government rules, and 
             tinkering with the Constitution to satisfy temporary 
             political uproar went against the grain. He was a man who 
             could bring a world's fair to Spokane (Expo 74), which 
             attracted 5.2 million visitors; promote a huge third power 
             house to Grand Coulee Dam (at that time Grand Coulee 
             became the largest hydrodam in the United States); and 
             successfully fight the FDA and the movie industry on 
             issues important to the common man.
               Mr. Foley never deviated from the idea that you fought 
             for people who went to work every day and kept faith in a 
             just nation, just as his grandfather did in the Spokane 
             rail boiler shops at the turn of the previous century.
               Tom Foley's views on the responsibility of a House 
             Member never changed. After his defeat in 1994, he noted:

               I've taken positions that I think were damaging in a 
             political sense, but I don't have any regrets taking them. 
             I used to say that the most important thing about votes on 
             the floor and positions you take in Congress is that when 
             you consider them at election time you're able to say with 
             some satisfaction that you can still vote for yourself.

               Mr. Foley's 30 years in office involved 15 campaigns for 
             election. Some he won by large margins and others were 
             uncomfortably close. After surviving the Reagan landslide 
             of 1980, he did not retreat to the insular politics of 
             staying close to home. Rather, he took on more political 
             risk. Upon becoming the majority whip he had to give up 
             his Agriculture Committee chairmanship and use his 
             legislative skills to help lead the national Democratic 
             Party and support the policy agenda of the Clinton 
             Presidency, which he did faithfully. But, unlike the 1980 
             election he could not hold onto an increasingly 
             conservative and Republican district. As the Democrats 
             lost the majority in the House in 1994 so too did he 
             closely lose his seat as the Representative from the Fifth 
             District of Washington State.
               Mr. Foley saw the future, not in lobbying, but in trying 
             to stay involved in broad policy questions and foreign 
             affairs. He became a counsel to the prominent Washington 
             law firm of Akin Gump Strauss Hauer & Feld and chairman of 
             President Clinton's Intelligence Advisory Board. In 1997 
             President Clinton named Tom Foley as the U.S. Ambassador 
             to Japan.
               Mr. Foley knew Japan well, having traveled there every 
             year he served in Congress, becoming close to Japanese 
             leaders, politicians, academics, and businessmen. He was 
             particularly fascinated by the courtesies inherent in 
             Japanese culture and developed a deep respect for the 
             country's traditions and customs. Accordingly, he was 
             widely respected by the Japanese public and in 2001 the 
             new administration of President Bush asked him to stay on 
             to handle the public affairs disaster that occurred when a 
             U.S. submarine accidentally sank the Ehime Maru, a 
             Japanese fishery high school training ship in Honolulu's 
             harbor.
               Tom Foley left Tokyo in March 2001, returned to Akin 
             Gump, and became North American chairman of the Trilateral 
             Commission of which he had a been a longtime member. 
             Illness forced him to leave both positions in 2008.
               He is survived by his wife, the former Heather Strachan, 
             to whom he was married on December 19, 1968, and his 
             sister Maureen Latimer, her husband Richard Latimer of 
             Santa Rosa, CA, and their children Elizabeth Ann Garbocci 
             of Ukiah, CA; Kathleen Ely of Martinez, CA; Carolyn 
             Latimer of Santa Rosa, CA; John Latimer of Elk Grove, CA; 
             and Mark Latimer of Petaluma, CA.
?

                 

                                           

                                 MEMORIAL ADDRESSES

                                         AND

                                   OTHER TRIBUTES

                                         FOR

                                   THOMAS S. FOLEY
                 

                     Proceedings in the House of Representatives
                                              Tuesday, October 22, 2013
                                       PRAYER
               The Chaplain, the Reverend Patrick J. Conroy, offered 
             the following prayer:
               Almighty God, we give You thanks for giving us another 
             day.
               As the People's House returns, we give You thanks for 
             those most responsible for the resolutions reached this 
             past week and for the reopening of government, which has 
             meant so much to the families of those who have chosen to 
             serve their Nation by their work in government.
               As all return, the Capitol is in mourning for the loss 
             of two men of the House, former Speaker Tom Foley and 
             Representative Bill Young. Both men, a Democrat and a 
             Republican, were known to be giants in the People's House, 
             and their passing has deprived our Nation of experience 
             and wisdom in Congress at a time when it is needed.
               Bless all the Members with wisdom in good measure--
             pressed down, shaken together, and running over--that the 
             legacy of these great legislators might be carried on for 
             the benefit of all.
               May all that is done here in the People's House be for 
             Your greater honor and glory.
               Amen.

               Mrs. McMORRIS RODGERS. Mr. Speaker, I offer a privileged 
             resolution and ask for its immediate consideration.
               The Clerk read the resolution, as follows:
                                     H. Res. 383
               In the House of Representatives, U.S., October 22, 2013:
               Resolved, That the House has learned with profound 
             sorrow of the death of the Honorable Thomas S. Foley, 
             former Member of the House for 15 terms and Speaker of the 
             House of Representatives for the One Hundred First, One 
             Hundred Second and One Hundred Third Congresses.
               Resolved, That in the death of the Honorable Thomas S. 
             Foley the United States and the State of Washington have 
             lost a valued and eminent public servant and citizen.
               Resolved, That the Clerk communicate these resolutions 
             to the Senate and transmit a copy thereof to the family of 
             the deceased.
               Resolved, That when the House adjourns today, it adjourn 
             as a further mark of respect to the memory of the 
             deceased.

               The resolution was agreed to.
               A motion to reconsider was laid on the table.

               Mr. GOHMERT. Mr. Speaker, I move that the House do now 
             adjourn.
               The motion was agreed to; accordingly (at 9 o'clock and 
             31 minutes p.m.), under its previous order and pursuant to 
             House Resolution 383 and House Resolution 384, the House 
             adjourned until tomorrow, Wednesday, October 23, 2013, at 
             10 a.m., for morning-hour debate, as a further mark of 
             respect to the memory of the late Honorable Thomas S. 
             Foley and the late Honorable C.W. Bill Young.
                                               Monday, October 28, 2013
               Ms. JACKSON LEE. Mr. Speaker, I rise to pay tribute to 
             former House Speaker Thomas ``Tom'' S. Foley, the 57th 
             Speaker of the House of Representatives and a man whose 
             love for this Chamber and whose commitment to public 
             service was unsurpassed. Speaker Foley died Friday, 
             October 18, at his home in Washington, DC. He was 84 years 
             old.
               Tom Foley was in every sense of the word a gentleman. He 
             believed in bipartisanship. He treated everyone equally 
             and with respect. Upon relinquishing the speakership, he 
             left these parting words of advice to his successor, 
             incoming Speaker Newt Gingrich: ``Remember, you are the 
             Speaker of the whole House and not just one party.''
               The environment of the House of Representatives under 
             the leadership of Speaker Foley was marked by mutual 
             respect and cooperation, which enabled the Congress to 
             work with the President and pass legislation that made our 
             country better.
               During Tom Foley's speakership the Congress passed, and 
             the President signed into law, the Family and Medical 
             Leave Act; the Americans with Disabilities Act of 1991; 
             the North America Free Trade Agreement (NAFTA); the 
             General Agreement on Trade and Tariffs (GATT); the 1994 
             crime bill which put 100,000 new police officers on the 
             streets, banned assault weapons, and reduced crime rates 
             by more than a third; and the 1993 Clinton economic plan 
             that led to the creation of 22 million jobs, 4 balanced 
             budgets, and the longest period of sustained economic 
             prosperity in the post-war period.
               Thomas Stephen Foley was born March 6, 1929, in Spokane, 
             WA. He attended a Jesuit preparatory school where he 
             acquired the nickname ``the senator'' for his intellect 
             and the way he solved problems. He is reported to have 
             overcome a lisp to excel in debate and to earn his 
             baccalaureate degree from the University of Washington in 
             1951. Six years later, Tom Foley was admitted to the bar 
             after graduating from the University of Washington School 
             of Law. He practiced law in Spokane prior to becoming a 
             prosecutor and later an assistant State attorney general.
               In 1960 he joined the staff of his mentor, the legendary 
             Senator Henry ``Scoop'' Jackson (D-WA), and moved to 
             Washington, DC, where he met his future partner in life, 
             his beloved Heather, whom he married in 1968, and who 
             remained by his side for the next 45 years and was with 
             him when he died.
               Mr. Speaker, in 1964 Tom Foley defeated an 11-term 
             incumbent and was elected by the people of the Fifth 
             Congressional District of Washington to represent them in 
             the House of Representatives. He was reelected to the next 
             succeeding 14 Congresses.
               Over those 30 years, Tom Foley compiled a truly 
             impressive record. He sought and obtained a seat on the 
             Agriculture Committee to advocate on behalf of his 
             constituents in the wheat growing region of Eastern 
             Washington.
               Tom Foley was an accomplished legislator. One of his 
             major achievements as a member of the Agriculture 
             Committee was the grand bargain he crafted which led to 
             the enduring partnership between conservative farmers and 
             progressive supporters of nutrition programs.
               Mr. Speaker, Tom Foley was an unwavering advocate for 
             progressive policies and a formidable opponent of policies 
             he believed were harmful to the interests of the poor, 
             workers, or women. He supported President Johnson's Great 
             Society Programs and voted for the Civil Rights Act of 
             1964, the Voting Rights Act of 1965, and the Fair Housing 
             Act of 1968. He also supported a strong national defense 
             and sensible foreign policy, which is why he opposed the 
             escalation of the Vietnam war.
               After the watershed election of 1974, he was elected by 
             his colleagues to chair the Agriculture Committee, a 
             position he held until 1981, when he was appointed 
             majority whip by then-Speaker Thomas P. ``Tip'' O'Neill. 
             When Speaker O'Neill was succeeded by Majority Leader Jim 
             Wright (D-TX), Tom Foley was elevated to the post of 
             majority leader and served in that post until June 6, 
             1989, when he was elected Speaker of the House upon the 
             resignation of Speaker Wright.
               Tom Foley was Speaker of the House in 1991 when 
             President George H.W. Bush launched Operations Desert 
             Shield and Desert Storm, the first Persian Gulf war. 
             Thanks in large part to the spirit of bipartisanship that 
             Tom Foley embodied, the Nation remained unified throughout 
             the Persian Gulf war.
               Following Speaker Foley's service in the House of 
             Representatives, he served with distinction as U.S. 
             Ambassador to Japan during the second Clinton 
             administration. In recognition of his exceptional service 
             to our country, in 2001 the Federal courthouse in Spokane, 
             WA, was renamed the Thomas S. Foley United States 
             Courthouse.
               Today, one of the things cited most as being what is 
             wrong with Congress is the environment of 
             hyperpartisanship which is threatening the ability of the 
             House to fulfill its function.
               It is my hope that we all remember and learn from the 
             example of Speaker Foley that civility is a virtue, that 
             compromise is not weakness, and that it is possible for 
             persons of good will to disagree without being 
             disagreeable.
               Thank you, Speaker Thomas S. Foley, for your service to 
             our Nation. You made the People's House a better place by 
             promoting mutual respect and cooperation.
                                            Wednesday, October 30, 2013
               Mr. HOYER. . . . Yesterday, many of us had the 
             opportunity to participate in a memorial service for Tom 
             Foley. Tom Foley was the Speaker of this House.
               A gentleman spoke who is, I think, one of the most 
             revered Members who has served in this body, Robert 
             Michel. Bob Michel was Tom Foley's friend. Bob Michel was 
             the leader of the Republican side of the aisle. They were 
             friends, colleagues, and cooperated with one another to 
             the benefit of this institution and its Members, and the 
             dean of the House adds, correctly, to the benefit of our 
             country and all its citizens.
               Bob Michel observed the civility that each one of them 
             displayed and the willingness to reach out across the 
             aisle and to make things happen positively for our country 
             and for our citizens. . . .
               How sad it is that these giants, Tom Foley, Bill Young, 
             Ike Skelton, and, yes, Major Owens, passed from this body, 
             passed from this life, but how joyful it is to see the 
             extraordinary contributions each of them made to this 
             House, which we should revere and love, the People's 
             House. . . .
                                              Monday, November 18, 2013
               Mr. BOEHNER. Mr. Speaker, the Honorable Thomas S. Foley, 
             former Speaker of the House of Representatives, died on 
             October 18, 2013. The House took several steps to honor 
             the former Speaker. Following House tradition, the 
             Speaker's chair on the rostrum was draped in black and the 
             Speaker's gavel rested on a black pillow. Outside the 
             House Chamber, Speaker Foley's official portrait in the 
             Speaker's Lobby was draped in black. On October 22, 2013, 
             the House adopted House Resolution 383, expressing the 
             condolences of the House upon his death. On October 29, 
             2013, a memorial service was held in Statuary Hall 
             celebrating the life of Speaker Foley. The following is a 
             transcript of those proceedings:
               [The transcript may be found on page 15.]
                 

                              Proceedings in the Senate
                                               Monday, October 28, 2013
               Mr. REID. . . . We are going to have a celebration here 
             tomorrow on the life of Tom Foley. I had the good fortune 
             of serving with him in the House. He came from a real 
             conservative district in the State of Washington. He 
             served for many years. He was the majority leader, he was 
             the Speaker, and a fine man. . . .
                 
         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>    
               

                          A CELEBRATION OF THE LIFE OF

                                    THE HONORABLE

Thomas S. Foley

                            Fifth District of Washington
                    Speaker of the U.S. House of Representatives

                           MARCH 6, 1929-OCTOBER 18, 2013

                                    Statuary Hall
                                United States Capitol
                              Tuesday, October 29, 2013
                                      3:00 p.m.
             ``In a cynical age, I still believe that we must summon 
             people to a vision of public service . . . for, in the 
             end, this ethic determines more than anything else whether 
             we will have citizens and leaders of honor, judgment, 
             wisdom, and heart.''

                                        --The Honorable Thomas S. Foley
             Order of Service

 
 
 
                                                                                       Prelude
                               ......................  United States Air Force Band String Quartet
 
                                                                    Presentation of the Colors
                               ......................  United States Capitol Police Ceremonial Unit
 
                                                                               National Anthem
                               ......................  TSgt Emily Wellington, United States Air Force Band Soloist
 
                                                                                       Welcome
                               ......................  The Honorable John A. Boehner, Speaker of the United States House of Representatives
 
                                                                                    Invocation
                               ......................  The Reverend Patrick J. Conroy, S.J., Chaplain of the United States House of Representatives
 
                                                                                      Tributes
                               ......................  The Honorable Norman Dicks, United States House of Representatives, Sixth District of Washington
                                                        (1977-2013)
                               ......................  The Honorable Jim McDermott, United States House of Representatives, Seventh District of
                                                        Washington
                               ......................  The Honorable John Lewis, United States House of Representatives, Fifth District of Georgia
                               ......................  The Honorable Nancy Pelosi, Democratic Leader of the United States House of Representatives
                               ......................  The Honorable Mitch McConnell, Republican Leader of the United States Senate
                               ......................  The Honorable Harry Reid, Majority Leader of the United States Senate
 
                                                                             Musical Selection
                               ......................  ``Eternal Father, Strong to Save''
                               ......................  TSgt Emily Wellington, United States Air Force Band Soloist
 
                                                                                      Tributes
                               ......................  The Honorable Robert H. Michel, Minority Leader of the United States House of Representatives
                                                        (1981-1995)
                               ......................  The Honorable William J. Clinton, 42nd President of the United States
                               ......................  The Honorable Barack H. Obama, President of the United States
 
                                                                             Family Reflection
                               ......................  Mrs. Heather Foley, wife of the Honorable Thomas S. Foley
 
                                                                                   Benediction
                               ......................  The Reverend Patrick J. Conroy, S.J., Chaplain of the United States House of Representatives
 
                                                                                      Postlude
                               ......................  United States Air Force Band String Quartet
 

  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>               
               
               

             .eps``I've taken positions that I think were damaging in a 
             political sense, but I don't have any regrets taking them. 
             I used to say that the most important thing about votes on 
             the Floor and positions you take in Congress is that when 
             you consider them at election time you're able to say with 
             some satisfaction that you can still vote for yourself.''

                                              --Speaker Thomas S. Foley

                                    THE HONORABLE

                                   Thomas S. Foley
                           MARCH 6, 1929-OCTOBER 18, 2013

Immediately following today's memorial service,

the Foley family will receive guests

in the Atrium of the Congressional Auditorium

in the Capitol Visitor Center.

             The Honorable John A. Boehner, Speaker of the U.S. House 
             of Representatives. Ladies and gentlemen, let us begin 
             today by acknowledging a great friend of this institution, 
             Mrs. Heather Foley. (Applause.)
               Mrs. Foley, thank you for giving us this chance to try 
             to express the depth of gratitude that we owe to Tom.
               An English poet once wrote, ``The noblest work of God is 
             an honest man.'' Well, Tom Foley was that and more. A 
             leader grounded in decency, in principle, he brought honor 
             to himself, to his family, and to this House. He did all 
             these things a public servant should do and, frankly, did 
             many of them better than the rest. Ask any of his peers 
             and they will tell you this, especially those who didn't 
             share his politics.
               Listen to Bob Dole, who around the time Tom became 
             Speaker called him ``a man of total integrity.'' Or ask 
             Alan Simpson, who said, ``Tom can tell you to go to Hell 
             and make you feel good about going there.'' And Henry 
             Hyde, as fierce a conservative as they come, who said of 
             the man, ``I wish he were a Republican.''
               There's also this from President George H.W. Bush, ``Tom 
             Foley represented the very best in public service and our 
             political system.'' One class act tipping his hat to 
             another.
               Yes, the span of Tom's service and his record is 
             impressive, as is the sequence of his rise: Agriculture 
             Committee chairman, majority whip, majority leader, and 
             Speaker.
               But it was his sense of fairness, his port-in-a-storm 
             bearing, that will always stand out for me. It's how he 
             held this institution together at a very difficult time, 
             and it's why those who come after us, who seek to know 
             what it means when we use that phrase, ``man of the 
             House,'' or just what it means to leave something behind, 
             should look up the name Thomas S. Foley.
               Today, we gather in the old Hall, joined by Presidents, 
             Vice Presidents, Speakers, and so many of our colleagues 
             and diplomats that Tom served with and to reminisce about 
             this man's service and a toast to his life.
               Welcome, and thank you all for being here.

             The Reverend Patrick J. Conroy, S.J., Chaplain of the U.S. 
             House of Representatives. God of Heaven and Earth, the 
             work of Your hands is made known in Your bountiful 
             creation and in the lives of those who faithfully live in 
             Your grace.
               Today we especially remember the life and work of Tom 
             Foley, son of the very proud city of Spokane. His 
             commitment to furthering education in his own district, 
             Washington's Fifth, is testified to by the Ralph and Helen 
             Higgins Foley Library at Gonzaga University, his alma 
             mater. It is named in honor of his parents, who clearly 
             did something right in raising such a son.
               Tom Foley was a modest man whose impact on the public 
             weal beyond his district far exceeded any projection of 
             ego strength. May we all be inspired by his example to be 
             men and women impelled to improve the lives and prospects 
             of our fellow citizens while eschewing any honor or glory 
             for ourselves, and as he did, do our part to increase 
             understanding and respect across cultural divides.
               Be present with us this day, O God, as we mark his life 
             and remember his legacy. Bless this gathering and comfort 
             us as we comfort one another in remembering a great 
             American and a genuinely good man.
               Amen.

             The Honorable Norman D. Dicks, U.S. House of 
             Representatives, Sixth District of Washington, 1977-2013. 
             Tom Foley was my friend, mentor, and colleague in the 
             House of Representatives.
               I first met Tom Foley at the University of Washington 
             Law School in 1965 during his freshman term. He was a 
             brilliant young man with a warm and friendly smile. It was 
             his intellect and love for this country that made him an 
             outstanding leader.
               He served as chairman of the House Agriculture Committee 
             and worked hard on the farm bill and food stamp 
             legislation. Bringing these two issues together allowed 
             Chairman Foley to build support in the House for both.
               Tom believed in and practiced civility, and 
             bipartisanship. His view was that, after the elections 
             were over, Democrats and Republicans should work together 
             to deal with the national legislative agenda.
               Seeing Tom Foley's strong leadership qualities and 
             belief in getting things done for the American people, 
             Speaker O'Neill appointed Tom to be the majority whip. He 
             was then unanimously elected to be our majority leader and 
             then our Speaker in 1989.
               As Speaker, Tom worked closely with Bob Michel, the 
             Republican leader from 1989 to 1995. They remained great 
             friends after they left Congress. Later, President Clinton 
             named Speaker Foley to be our Ambassador to Japan.
               As a staffer to Senator Warren T. Magnuson, I worked 
             with Tom on the Spokane World's Fair in 1974. This project 
             created dramatic change for Spokane, the largest city in 
             the Fifth District.
               Tom was so proud to represent the people of the Fifth 
             Congressional District for 30 years. He always thought 
             this was his most important responsibility.
               It was a great honor for me that Tom Foley supported me 
             in my campaign to Congress in 1976. I was then privileged 
             to work with him and to receive his support as a Member of 
             the House, and I will always thank him for being such a 
             good mentor.
               We will always remember the legacy of Tom Foley. He 
             believed in the Congress, and he believed that this 
             institution could produce positive results for the 
             American people.
               His loving wife, Heather, supported him throughout his 
             career and took wonderful care of him during his long 
             illness.
               May God bless you, Heather, and the entire Foley family.

             The Honorable Jim McDermott, U.S. House of 
             Representatives, Seventh District of Washington. Good 
             afternoon. I am Jim McDermott. I am a House Member from 
             Washington's Seventh Congressional District, which is 
             mostly Seattle. I knew Tom Foley for more than 40 years, 
             and throughout that time, he was a wonderful friend and a 
             sage mentor.
               In 1971, when I was a freshman State legislator, he took 
             me out to dinner in Seattle and suggested I run for 
             Congress. I was pleased by his regard for my career, but I 
             knew better since I was a freshman legislator. So I 
             rejected it and ran for Governor. I got creamed. Tom never 
             said a word.
               Chastened, I returned to the legislature, determined to 
             learn as much as I could about the realities of governing 
             effectively and the challenges of the legislative role.
               When I finally ran for Congress in 1988, Tom was the 
             majority leader of the House. As I arrived for my first 
             term in 1989, Tom was about to become Speaker. I know now 
             that he was about to become the last Speaker of the whole 
             House. He believed that the Speaker was the Speaker for 
             the whole House, and he lived that to his very core.
               Today many will note Tom's devotion to the House of 
             Representatives and his learned knowledge of the history 
             of this organization. Sitting down with Tom and letting 
             him tell stories, you learned enormous amounts. He 
             appreciated the role of the House in our balanced 
             structure of government. He knew well the challenge of 
             maintaining that fragile balance.
               So when he assumed the speakership, he brought to it a 
             scholar's depth of understanding and a disciple's passion. 
             He led the House with fairness and comity, a style of 
             leadership we haven't seen--we recently have looked for 
             it--but we have not seen what Tom was able to do with both 
             sides.
               Tom understood that the House could not perform its 
             constitutional function without evenhandedness and 
             respected the role of the minority. Tom was a Democrat, no 
             question about it. He was very clear about why he was a 
             Democrat. He believed in the legitimacy and the value of 
             government. He knew that government's duty was to improve 
             the lives of Americans, and he saw it as a noble 
             obligation and worthy of one's very best efforts at any 
             time.
               When he became Speaker, he abandoned none of these 
             principles. He added to them a very nuanced appreciation 
             of the role of Speaker, and his certainty that the 
             leadership of the House required not a flame-throwing 
             partisan but a measured, steady pilot enlightened by an 
             unmatched knowledge of, and love for, the House of 
             Representatives.
               Tom Foley's district was a sprawling, largely rural 
             swath of Eastern Washington State; yet its essentially 
             very conservative voters reelected him for 30 years. They 
             took an urban internationalist and sent him back again and 
             again. They did so and that was a persistent reaffirmation 
             of his unshakeable integrity, his superb legislative 
             skills, and his deep connection with the people of the 
             Fifth District. He always started his speeches by saying, 
             ``My highest honor was to be elected Congressman from the 
             Fifth District.'' I believe that the voters recognized him 
             as a great American.
               We share that sense of wry Irish humor, but Tom's charm 
             and wit were all his own. He was an extraordinary person 
             and an irreplaceable friend. I am grateful to have known 
             him.
               Rest in peace.

             The Honorable John Lewis, U.S. House of Representatives, 
             Fifth District of Georgia. Mrs. Foley, bless you.
               There was a great minister, scholar, and abolitionist 
             who lived in New England in the 19th century. His name was 
             James Freeman Clarke, and he once made this statement: ``A 
             politician,'' he said, ``thinks only of the next election; 
             a statesman thinks of the next generation.''
               Speaker Tom Foley was a true statesman. He believed it 
             was an honor to serve the public good, and he brought 
             respect for the dignity of our democracy and the 
             inspiration of our mandate as a Nation to every moment of 
             his service. He believed it was our calling as Members of 
             Congress to do what we could to preserve and help create a 
             more perfect Union that has been in the making for almost 
             300 years.
               In all of my years knowing Speaker Foley and seeing him 
             on the floor or in small meetings, I never heard this man, 
             this good man, speak or say a bad word about anyone. I 
             just have a feeling that he was one who believed if you 
             couldn't say something good about someone, don't say 
             anything at all.
               As a leader, he believed he should build and not tear 
             down, reconcile and not divide. He stood for the 
             principles of diplomacy and mutual respect, even toward 
             his opposition. He did not subscribe to the politics of 
             personal destruction.
               He knew that his work as Speaker, as a Representative of 
             the great State of Washington or as a legislator was 
             bigger than his own personal values and ambition. He 
             wanted to leave a record of accomplishment that would have 
             a lasting impact on our society for generations to come. 
             When he left the Speaker's chair, it was the end of an 
             era, a period in our history.
               Maybe, just maybe, his passing at this moment in our 
             history is just an elegant reminder of one simple truth: 
             no leader is greater than the cause he serves, and when 
             our lives are over, we will be remembered not for fame or 
             fortune, but for how we helped or how we harmed the 
             dignity of all humankind.
               I will never forget this prince of a man who led by 
             example and struggled to turn the tide of partisanship in 
             Congress back to constructive debate on the great issues. 
             Every leader, whether in politics or in the larger 
             society, but every leader in America could do well to take 
             a page from Tom Foley's book.

             The Honorable Nancy Pelosi, Democratic Leader of the U.S. 
             House of Representatives. Heather, Mr. President, Mr. 
             President, Mr. Vice President, Mr. Vice President, how 
             wonderful that Speaker Foley has two Presidents, two Vice 
             Presidents, and the good wishes of President George 
             Herbert Walker Bush that our distinguished Speaker quoted 
             earlier. He could never probably have imagined that when 
             he came to the floor on the first day to make his first 
             floor speech. He said, ``Public service is a free gift of 
             a free people and a challenge for all of us in public life 
             to do what we can to make our service useful for those who 
             have sent us here.'' Few fulfilled that charge with more 
             courage, more conviction, more civility than he.
               I take great pride in the fact that he's the first 
             Speaker to hail from west of the Rocky Mountains. He 
             brought to Congress a fresh perspective and a powerful 
             voice that would open doors of leadership to Members who 
             represent the diversity of our country.
               His first campaign was legendary in its civility. Before 
             the election was even over, his opponent, Congressman Walt 
             Horan, released a statement calling the campaign the 
             cleanest he had ever seen in his 22 years in office. In 
             that spirit, when Tom Foley came to Congress and as 
             Speaker Foley, he made campaign finance reform a priority. 
             He sent legislation to the President's desk that would 
             ensure that our democracy was a government of, by, and for 
             the people. Unfortunately, we could not override the 
             President's veto, but Speaker Foley's commitment to a just 
             democracy and fair elections serves us as an enduring 
             challenge to this day.
               Known for his ability to build consensus, Speaker Foley 
             never compromised on the conviction to do right by the 
             American people. When tragedy struck at the Fairchild Air 
             Force Base Hospital in his district, this longtime 
             defender of gun rights saw the need for sensible gun 
             violence prevention laws. Speaker Foley brought that bill 
             to the floor. He helped enact it--those bans--knowing that 
             it would not be well received in his district. But he did 
             what he believed, and he did it with courage.
               He matched that dedication to principle and courage with 
             a gift for diplomacy. Nearly 20 years ago, I was 
             privileged--I don't know why I was on the list, but I was 
             invited to attend a special dinner at the British Embassy 
             to honor Speaker Foley for his leadership. As fate would 
             have it, President Clinton, that was the day that you 
             announced that you were going to grant a temporary visa to 
             Gerry Adams. Just a coincidence.
               Needless to say, the mood of the evening was tense. 
             Speaker Foley, with his characteristic grace, reasoned 
             that this step--no matter how disconcerting at the moment 
             to them--was crucial to delivering an ever-elusive peace 
             to Northern Ireland, Ambassador.
               That remarkable ability to build bridges across great 
             divides would serve him well as Speaker and, later, as 
             U.S. Ambassador to Japan--something he took great pride 
             in, as I know you did, Mr. Vice President. His judgment 
             was impeccable and was respected, and many of us benefited 
             from it.
               For me, in September 2008, I attended a G-8 meeting of 
             heads of Parliament, or Speakers--whatever they're called 
             in their particular country. All of the participants were 
             invited to lay a wreath at the Hiroshima Peace Memorial. I 
             immediately called Ambassador Foley, as I called Vice 
             President Mondale, to ask what I should do. He replied, 
             ``You must participate. You will be the highest-ranking 
             American official,'' up until then, ``to lay a wreath at 
             the memorial. You cannot say no.''
               Now, that may seem easy now, but at the time, that was 
             very strong judgment, as, again, the Vice President also 
             gave me.
               Such is the nature of a great man who believed, above 
             all, in the purpose of public service. It's about respect. 
             Diplomat, leader, Speaker--Tom Foley was the 
             quintessential champion of the common good. He spoke for 
             the House he led and the country he so loved.
               In his farewell speech--I started with his opening 
             speech--in his farewell speech to the House, he said, 
             ``Congress is the place where we come together to speak 
             the voices of America and democracy, and it is the voice 
             that is found to echo resoundingly throughout the world.'' 
             Throughout the world.
               Heather, I hope it is a comfort to you that so many 
             people mourn your loss throughout the world and are 
             praying for you at this sad time. To you, Heather, and to 
             the Foley family, thank you for sharing Tom with a 
             grateful Nation. His voice will forever echo in our 
             hearts, to all who strive to make a difference through 
             public service.
               As we count our blessings as a Nation, we know that God 
             truly blessed America with the life and leadership of 
             Speaker, Ambassador, and leader, Tom Foley.

             The Honorable Mitch McConnell, Republican Leader of the 
             U.S. Senate. Thank you all for being here. Heather, we 
             honor you today. You were there all along, guiding and 
             accompanying Tom across all the peaks and the valleys 
             right to the end. We thank you for your spirit, your 
             generosity, and your example, which enlivened this House, 
             as well as your own, for many years. Welcome back.
               Now, given Tom's famous equanimity, it is somewhat 
             ironic that he decided to run for Congress in the first 
             place. He actually did it in a moment of anger. The day 
             was July 16, 1964. The Beatles had just returned to 
             Liverpool after their first U.S. tour. President Johnson 
             had recently signed the Civil Rights Act and was on his 
             way to a landslide victory against Barry Goldwater that 
             November. And a 35-year-old Tom Foley was having lunch at 
             the Spokane Club in downtown Spokane.
               A gifted lawyer from a prominent local family and a 
             trusted aide to Scoop Jackson, Tom mentioned to the guys 
             he was eating lunch with that he was thinking seriously 
             about running for Congress--not this time, but the next 
             time around. At which point, one of his lunch companions 
             bluntly dismissed the idea out of hand and said, ``You'll 
             never do it. You're like all young people. You think the 
             party's going to come to you with a Tiffany tray and an 
             engraved card and say, `Please, we humbly beg you, run for 
             Congress.' That isn't the way it happens. People get to 
             Congress by wanting to run for Congress. You've got 
             excuses this year, and you'll have excuses next year and 
             the year after that.''
               Well, Tom didn't like this little piece of armchair 
             psychology one bit, and he was determined to prove them 
             wrong. So he got up from the table, walked over to the 
             library across the hall, stuffed himself into a phone 
             booth, and called Western Union. Within minutes, a 
             telegram had been sent to Senator Jackson back in 
             Washington saying that Tom had just resigned his job and 
             was headed to Olympia to file for a run.
               Then Tom called his bank and found out he didn't have 
             any money. His cousin Hank had to loan him the filing fee.
               Oh, and the filing deadline was the next day.
               So Tom had no cash, no plan, and virtually no time.
               But he had the smarts. He had a sterling reputation. He 
             had the backing of Senator Jackson. And now, he had the 
             motivation.
               And he did it, and for the next three decades, Thomas 
             Stephen Foley would devote his life to the people of 
             eastern Washington's Fifth Congressional District--with 
             grace, intelligence, wit, and a profound respect for 
             others, including his political adversaries, and an 
             abiding gratitude for the trust and confidence of the 
             people he was elected to serve, from Walla Walla to 
             Northport and all the wheat country and timber towns in 
             between.
               Tom always looked the part. Even his classmates at 
             Gonzaga High School called him ``the senator.'' I dare say 
             that if most Americans were asked to conjure up in their 
             minds the image of a Congressman, the man they'd like to 
             see would be him. To most people, it seemed as though Tom 
             were born to serve here. And in a remarkable 30-year 
             congressional career, he proved they were right. He proved 
             that he didn't just look the part, he knew the part, and 
             he played it well.
               Tom and I weren't on the same side on most issues. His 
             faith in government was, shall I say, a little more robust 
             than mine, but we shared a deep respect for the 
             institution and a belief that working with the other side, 
             particularly at a time of divided government, is no heresy 
             when it enables you to achieve some good for the Nation.
               That kind of comity is sometimes viewed as old fashioned 
             around here, but that's never been true. The parties have 
             always disagreed, but it hasn't kept them from working 
             together from time to time to solve problems that we all 
             recognize.
               Tom knew that. He practiced it. He took flak from time 
             to time for being a little too friendly with Republicans, 
             but I don't think he ever doubted the wisdom of his 
             approach, even in defeat. As Tom often said, ``The first 
             vote you need to earn is your own.'' It was a principle 
             that served him very well, and it's one that I think says 
             a lot about what the legacy of the gentleman from Spokane 
             will be. We honor his service and his memory.
               May we draw all the right lessons from both.

             The Honorable Harry Reid, Majority Leader of the U.S. 
             Senate. For 4 years, I served in the House of 
             Representatives with Speaker Tom Foley. During the time I 
             served there, he was the majority whip. I also served with 
             the man who would succeed Speaker Foley as leader of the 
             House, Speaker Newt Gingrich. Newt and I don't agree on 
             too much, but when he wrote in last week's Time magazine 
             that Tom Foley was a pragmatic man, a person of great 
             integrity, and a genuine patriot, I couldn't agree more 
             with Newt.
               This is what Speaker Gingrich wrote: ``I have nothing 
             but fond memories of serving with Tom Foley. We worked 
             together when we could, competed when we had to, and 
             cooperated for the national interest as far as possible.''
               I, too, have fond memories of my time serving in the 
             House with Tom Foley. I offer my condolences to Heather 
             who, as we all know, had a strong voice in the House, at 
             least when I was there. She was tremendous, always there 
             available to help us; and she was his greatest influence 
             politically in his whole life.
               Tom learned his practical style of politics from his 
             mentors, Senators Scoop Jackson and Warren Magnuson, who 
             were both from the State of Washington. Speaker Foley 
             gained his pragmatism from being a Member, as we've heard 
             from Norm Dicks and others, as a Member and then chairman 
             of the House Agriculture Committee, one of the Chamber's 
             most bipartisan committees.
               I credit much of Tom's down-to-earth demeanor to his 
             Western upbringing. You see, he was the first Speaker of 
             the House of Representatives to be born west of the Rocky 
             Mountains. He cut an imposing figure. He was a big man 
             physically and had this wonderful smile and great voice. 
             He was always gracious to young Members like me.
               One day, when I reflect back, as we get a little older, 
             and we've all had that experience, or most of us, you 
             can't see like you used to, and somehow he didn't bring 
             his reading glasses with him. He was desperate. He had to 
             read there. He was managing what was going on on the floor 
             and he couldn't see. I was the first person he saw, and he 
             said, ``Find me some glasses. I don't care where you get 
             them.'' I wanted to adhere to his wishes, so I didn't care 
             where I got them. Somebody left them laying on a desk, and 
             I grabbed them, and he was so happy to get those glasses 
             because, as has happened to all of us, he just couldn't 
             see and he needed to see. Well, it was my honor and 
             pleasure to find him some glasses to help him see that 
             day.
               But a vision as to where the country needed to go he 
             always saw clearly.

             The Honorable Robert H. Michel, Minority Leader of the 
             U.S. House of Representatives, 1981-95. Heather, members 
             of the family and President Clinton, President Obama, and 
             all my former colleagues and friends of Tom, all of you, 
             it was my good fortune to have visited Tom with my former 
             right-hand man Billy Pitts a few days before Tom died. I 
             am so grateful to Heather for making that visit possible.
               We thought it was going to be just a visit of a couple 
             of minutes, and it ended up we were speaking for an hour 
             about the days gone by, not unlike so many others we had 
             over a relationship of more than 40 years. We both were 
             able to say our peace in an atmosphere of mutual respect, 
             open-mindedness, and, most of all, trust.
               As I said in an article in the Post the other day, when 
             Tom became Speaker, he suggested that we get together once 
             a week, talk over the affairs of the House, one week in my 
             office and the next in his, something that had never been 
             done before. While we disagreed over policy and jousted 
             with each other politically, the meetings were highly 
             productive because underlying them was the faith and trust 
             we had in each other. We could talk about anything, 
             knowing that our discussions would remain private unless 
             we decided otherwise. I don't think there is anything more 
             important in the relationship between political leaders 
             than trust.
               Never was that bond tested more than it was in January 
             1991 when I implored Tom to bring to the House floor a 
             resolution that Steve Solarz of New York and I had 
             introduced authorizing then-President Bush to engage in 
             military action in Operation Desert Storm to drive Saddam 
             Hussein out of Kuwait. I was convinced that Tom opposed 
             military intervention, and I know that a good many of his 
             caucus were strongly opposed as well. It was an exercise 
             of political courage and personal decency for Tom to agree 
             to bring the resolution up for an open debate and recorded 
             vote under those circumstances, but he did.
               We had one of the most spirited, but civil and 
             informative, debates in which I had been privileged to 
             participate in all my 38 years in Congress. We prevailed 
             in the final outcome that day, but I would have been proud 
             of the House and proud of our Speaker regardless, because 
             the House demonstrated to the world that it was truly a 
             deliberative and democratic body.
               Tom and I always struggled to find common ground between 
             our two sides. When there were issues upon which we could 
             not agree, we could at least use common courtesy in the 
             way we conducted our politics. That isn't just good 
             manners; it is good politics.
               But win, lose, or compromise, the way we argue can be as 
             important, in the long run, as the decisions we reach.
               I so admired Tom's grace and civility. I also admired 
             his understanding and natural feel for the personality and 
             the distinctive culture of the institution. He was so 
             dedicated to its preservation and protection. Tom was 
             chosen to lead the House in a very difficult time. Through 
             it all, he was a gentleman of the House and a fair and 
             honest broker and a worthy adversary.
               Maybe we both knew that our days were numbered. We were 
             too conditioned by our personal and political upbringing 
             to assume that we had the market cornered on political 
             principle or partisan superiority. We knew, too, that 
             there would always be a distinction and separation between 
             campaigning for office and serving in office. We were, I 
             guess, pupils of the old school.
               Tom knew that a House Member has three essential jobs: 
             to deliberate, to debate, and to be effective. He knew 
             that if we wanted to be effective in the House, you just 
             can't go around shouting your principles; you have to 
             subject those principles to the test of open debate 
             against those who do not share those principles. But true 
             debate is not possible unless the Golden Rule is applied, 
             which simply means that you treat your fellow Members the 
             way you, yourself, want to be treated. Tom believed in 
             that rule, and he practiced it from the day he came to the 
             House and all during his time as Speaker of the House.
               Tom Foley was proud to be a Member of this House. I 
             share that deep pride in this great institution, and I 
             guess that is one reason we were able to work together. We 
             both saw the House of Representatives not as a necessary 
             evil, but as one of the great creations of a free people.
               On our last day in Congress, November 29, 1994, Tom did 
             me the great honor of inviting me to the Speaker's podium 
             to preside over the House while he gave his farewell 
             remarks from the well. Incidentally, that was the first 
             time in 40 years a Republican had been on that rostrum. 
             When we stood side by side at the podium on that last day 
             of the 103d Congress, we knew that we were icons, I guess, 
             of a bygone era. As we visited for the last time 20 years 
             later, I think we felt good about that. We both took great 
             pride in knowing we had made things happen, that we found 
             good ways to solve difficult problems and make the House a 
             working institution.
               Now Tom takes his place among the great public servants 
             immortalized in this Hall of Statues. He is most worthy of 
             a presence here. I know, because of his great love for 
             this institution, that his spirit will dwell here forever. 
             I only hope that the legislators who now walk through here 
             each day, so consumed by the here and now, will feel his 
             spirit, learn from it, and be humbled by it.
               That's what I have to say in honor of my dear friend, 
             Tom Foley.

             The Honorable William J. Clinton, 42d President of the 
             United States. Mr. Michel may be 90 years old, but he has 
             the spirit of a man half his age and the wisdom of one 10 
             times his age. We thank him for his remarks.
               Heather, I thank you, and Mr. Speaker, I thank you for 
             giving those of us who worked with, knew, and cared about 
             Tom the chance to be here today. I thank you, Heather, for 
             all you did to make his work possible and better.
               Mr. President, thank you for being here, and Mr. Vice 
             President, Vice President Mondale, and all the others who 
             have spoken before me.
               Shortly after I was elected President, I invited Speaker 
             Foley and Leader Gephardt to come to Arkansas to see me to 
             tell me everything I didn't know that was about to happen 
             to me, which Tom Foley proceeded to do in that calm, 
             restrained, balanced, lyrical way.
               Tom told me not to be lulled by Bob Michel's 
             friendliness, that he was a very tough adversary, but I 
             could make a deal with him. He told me not to be 
             intimidated, Mr. Speaker, by your bellicosity because you 
             were a brilliant politician, but in the end, we would find 
             a way to do business. He turned out to be right about both 
             things.
               His leadership made possible things that mattered to me 
             a lot. Being President is a matter of trying to do what 
             you promised to do when you ran, trying to respond to 
             legitimate impulses that are coming out of the political 
             system across the range, and trying to deal with the 
             unanticipated developments. If you ignore any of them, you 
             cannot prevail. And if you can't work with Congress, it's 
             very difficult.
               Tom Foley, therefore, was pivotal in our landslide 
             victory for my economic plan and deficit reduction plan, 
             because we won by one vote in the House. That runaway 
             victory was made possible by the Speaker and everybody 
             else that voted for it. Also, we just celebrated the 20th 
             anniversary of the Family Medical Leave law, the 20th 
             anniversary of AmeriCorps. They are now part of the 
             pillars of our sense of common citizenship.
               Now, I have had Republicans and Democrats come up to me 
             and tell me what a difference the family leave law made 
             for them; young people who belong to both political 
             parties who believed in citizen service and participated 
             in AmeriCorps. He helped make those things possible, too. 
             That's one of the things that I always appreciated about 
             him and marveled at how he could be brutally honest in the 
             kindest way.
               It is true, as Leader Pelosi said, that he had a 
             conversion of sorts on the whole question of assault 
             weapons because of an experience he had, but he was very 
             clearheaded. He told me when we succeeded, in no small 
             measure thanks to the leadership of then-Senator Biden, 
             and putting the assault weapons ban back in the crime 
             bill, he said, ``You can leave this in here but there will 
             be a lot of blood on the floor if we pass this. Many of us 
             will not survive.''
               I will never forget the argument I had with him. I said, 
             ``Tom, I'm from Arkansas. Both my Senators voted for this. 
             I'm still going to carry it next time.'' He said, 
             ``Yeah.'' He said, ``In 4 years. It's the same thing with 
             your economic plan. People will see that it works and 
             people will see that they did not lose their guns and they 
             still got to defend their homes and go hunting and be in 
             sports shooting contests, but we all have to run before 
             they know any of that. We have enough uncertainty now. If 
             you put this in there, there will be a lot of carnage.''
               I thought he was wrong, but he was right. He lost that 
             election by 4,000 votes. I would be a wealthy man if I had 
             a dollar for every time in the last 20 years I have found 
             my mind drawn to that conversation.
               Was it worth his public service? We had 8 years of 
             declining violent crime for the first time in the history 
             of the country. We did prove that it did not interfere 
             with people's Second Amendment rights, but the price was 
             high.
               What I want to tell you is, appropriate today, that Tom 
             Foley, as nice as he was, as civil as he was, as much as 
             he loved his colleagues of both parties, was one tough 
             guy. This is a man who took up martial arts in his 
             sixties. Now that I am there, I respect it even more.
               He risked the broken bones and the torn ligaments and 
             everything. He was tough and he walked clear-eyed into the 
             House, and we put those votes together and the crime bill 
             passed. And those of us who supported it at least think 
             America was much better off as a result. But he knew that, 
             even in the spirit of bipartisanship and compromise, being 
             in public service and making difficult decisions was 
             inevitable and not free, and he paid the price.
               Before I came here, I read all the letters that Tom 
             Foley and I wrote to each other. That is a great thing 
             about having a library. Somebody will dig that stuff up 
             for you. Now, here is the one that means the most to me. 
             It says the most about him. He loved being in the House. 
             It hurts to lose anytime, but it really hurts if you're 
             the Speaker, and he knew his district, it turned out, way 
             better than I did, at least 4,000 votes better than I did.
               Bob Michel talked about what they did on November 29, 
             1994. This letter was written to me on November 16, 1994, 
             signed by Tom Foley and Dick Gephardt and Bob Michel and 
             Newt Gingrich, asking that the administration send to the 
             lame duck session of Congress the legislation to implement 
             the General Agreement on Tariffs and Trade which 
             established the World Trade Organization which I believe 
             has played a major role in lifting more people out of 
             poverty in extreme circumstances in very poor countries, 
             in the last 20 years, than anything else.
               He was, in short, dying inside, heartbroken, and he 
             still showed up for work, and he still believed that the 
             purpose of political service was to get the show on the 
             road.
               I will never forget this letter as long as I live. Dick 
             was hurt, too. He was going from the majority to the 
             minority, but Tom Foley had lost his seat in a district he 
             loved. I talked to him about the wrinkles and curves of 
             that district I don't know how many times. But he was 
             doing his job.
               I asked him to go to Japan, just as I asked Vice 
             President Mondale to go to Japan, for a very simple 
             reason. After our wartime conflict, they became one of our 
             greatest allies and one of the greatest forces for 
             democracy and security and freedom and growth in the 
             world. They had a tough time in the 1990s. They had their 
             collapse well before we did, and I always believed that 
             the rest of the world was underestimating the Japanese 
             people, their brilliance, their creativity, their 
             technology, their resilience, and I wanted them to know 
             that America still cared.
               When Fritz Mondale was there and when Tom Foley was 
             there, they knew America cared.
               So I leave you with this. I think they had a good time 
             there, and I think they enjoyed it. I know he did. There 
             were seven Japanese Prime Ministers in my 8 years as 
             President. We are not the only people that have turmoil. 
             The best politician was Prime Minister Obuchi. Tragically, 
             as a young man he had a stroke. He endured for 43 days 
             after his stroke, and when he died I suppose in a busy 
             world full of things to do, it was something of an 
             anticlimax. I was appalled when I was the only leader of a 
             major country that came to his funeral. But I flew all the 
             way to Japan, spent 7 hours, so that I could go. I liked 
             him, I admired him, and I thought he had set forth a 
             direction that gave Japan the best chance they had to 
             succeed until Mr. Mori took office.
               At the end of the funeral, young Japanese women appeared 
             with trays of flowers, and in the site, his ashes were on 
             a high wall that was totally made of flowers of the rising 
             sun, and every person there, beginning with his wife, went 
             up and bowed to his ashes and put a flower on the table 
             until thousands and thousands and thousands of flowers 
             were there creating a great cloud.
               He was succeeded as Prime Minister by one of his close 
             allies, and the ally said this: ``Tom Foley and I stayed 
             there for hours and then we went home and watched the rest 
             of it on television until every person had put their 
             flower there, a testimony to the importance of citizenship 
             and believing in the institutions of your country.'' The 
             current Prime Minister said this of his friend, ``I wonder 
             if he ever dreamed, and if my friend dreamed, I wonder 
             what his dreams were. Whatever they were, I hope they have 
             all now come true.''
               I did not know Tom Foley well enough to know if he ever 
             dreamed, or if he did, what he dreamed. But I know when he 
             sat with me that day and watched that sacred experience, I 
             saw the well of common humanity we all share across all of 
             our interesting differences.
               He gave his life to our country, and I hope his dreams 
             have all come true.

             The Honorable Barack H. Obama, President of the United 
             States. To Heather and the Foley family, to Tom's 
             colleagues and friends, President Clinton, Vice President 
             Mondale, former Speakers, and those who preceded me, I am 
             honored to join you today to remember a man who embodied 
             the virtues of devotion and respect for the institution 
             that he led, for the colleagues that he served alongside, 
             and, most important, for the citizens that he had the 
             honor to represent.
               Unlike so many of you, I did not have the privilege of 
             knowing Tom personally. I admired him from afar. But like 
             millions of Americans, I benefit from his legacy. Thanks 
             to Tom, more children get a head start on success in 
             school and in life, more seniors receive better health 
             care, more families breathe easier because they know their 
             country will be there for them in times of need. And all 
             of them--all of us--are indebted to that towering man from 
             Spokane.
               I think, in listening to the wonderful memories that 
             have been shared, we get a sense of this man, and we 
             recognize his humility. He often attributed much of his 
             success to good luck--and he may have had a point. Leader 
             McConnell told the story about his first race. There were 
             a couple of details that got left out. On the way to 
             Olympia to file the paperwork for his first congressional 
             campaign, apparently Tom blew out a tire, so he and some 
             friends hitchhiked to a service station to get it fixed. 
             And then, as they approached the outskirts of the city, 
             they ran out of gas, so they pushed the car up the hill, 
             coasting into town just before the deadline. Tom went on 
             to win that race by a resounding 54 votes.
               So there's no question that there may have been some 
             luck of the Irish operating when it came to Tom Foley, as 
             well as incredible stamina. But what led him to make 
             history as the first Speaker of the House from west of the 
             Rockies was not luck. It was his hard work, his deep 
             integrity, and his powerful intellect, and, as Bob Michel 
             so eloquently and movingly stated, his ability to find 
             common ground with his colleagues across the aisle. It was 
             his personal decency that helped him bring civility and 
             order to a Congress that demanded both and still does.
               Which brings me to a final point. At a time when our 
             political system can seem more polarized and more divided 
             than ever before, it can be tempting to see the 
             possibility of bipartisan progress as a thing of the 
             past--old school, as Bob said. It can be tempting to 
             wonder if we still have room for leaders like Tom; whether 
             the environment, the media, the way that districts are 
             drawn, and the pressures that those of us in elected 
             office are under somehow preclude the possibility of that 
             brand of leadership. Well, I believe we have to find our 
             way back there.
               Now, more than ever, America needs public servants who 
             are willing to place problem solving ahead of politics, as 
             the letter that President Clinton held up indicates, as 
             the history of the crime bill shows. We are sent here to 
             do what's right, and sometimes doing what's right is hard 
             and it's not free; and yet that's the measure of 
             leadership.
               It's important for us who feel a responsibility to fight 
             for a cause to recognize that our cause is not advanced if 
             we can't also try to achieve compromise, the same way our 
             Founders saw it--as a vital part of our democracy, the 
             very thing that makes our system of self-government 
             possible. That's what Tom Foley believed. That's what he 
             embodied. That's the legacy that shines brightly today.
               On the last day that he presided as Speaker, Tom 
             described what it should feel like to serve the American 
             people in this city. He spoke about coming to work in the 
             morning and catching a glimpse of the Capitol. He said 
             that it ought to give anyone a thrill, a sense not only of 
             personal satisfaction, ``but very deep gratitude to our 
             constituents for the honor of letting us represent them.'' 
             Tom never lost that sense of wonder.
               It's interesting--as I read that passage, what he wrote, 
             the first time I visited Capitol Hill, Tom Foley was 
             Speaker. I was a very young man and I was doing community 
             work, and I remember seeing that Capitol and having that 
             same sense of wonder. I think now about Tom Foley being 
             here, doing that work, and inspiring what might have 
             ultimately led me to be interested in public service as 
             well.
               When we're standing outside these magnificent buildings, 
             we have that sense of wonder and that sense of hope. 
             Sometimes the longer you're here, the harder it is to hang 
             on to that. Yet Tom Foley never lost it--never lost that 
             sense of wonder, never lost the sense of gratitude. What a 
             privilege he felt it was to serve. He never forgot why he 
             came here--on behalf of this Nation and his State and the 
             citizens that he loved and respected so much.
               And so, as a country, we ought to be grateful to him. 
             And to Heather and to the people of the great State of 
             Washington, thank you so much for sharing Tom with us.
               God bless Tom Foley. God bless the United States of 
             America.

             Speaker Boehner. Mr. President and to all of our speakers, 
             thank you for your testimonials.
               In keeping with tradition, at this time, I would like to 
             ask Leader Pelosi to join me as we present Mrs. Foley with 
             a flag flown over the Capitol on the day of the Speaker's 
             passing and a copy of House Resolution 383, a resolution 
             expressing the House's sincerest condolences.
               (Presentation made.)

             Mrs. Heather Foley. Thank you, President Obama and 
             President Clinton. I so appreciate you coming to honor and 
             celebrate Tom's life.
               Thank you, Norman Dicks and Jim McDermott, our wonderful 
             friends. Let me acknowledge Congressman Lewis and former 
             Congressman and Republican leader Bob Michel, who have 
             both always been great friends to Tom and me.
               And of course, I thank Senator Harry Reid and Senator 
             Mitch McConnell for traveling a long way from the Senate 
             to the House to remember my husband.
               Also, I want to thank the Special Envoy from Japan, 
             Minister Masahiko Komura and Ambassadors Sasae, Anderson, 
             and Westmacott, plus the diplomatic delegations, for 
             coming.
               I owe a special debt of gratitude to Speaker Boehner for 
             making this memorial service possible. Without his caring 
             and competent staff, this event would not have happened.
               When my husband was Speaker, we had about one person who 
             handled this kind of work. The Speaker has been most 
             gracious and helpful, and I applaud him for that.
               I want to say a few words about my husband. As you 
             probably know, I worked for him for years as an unpaid 
             staffer. I did not plan to do this when I married him in 
             1968. I was sort of wooed into being a volunteer for just 
             a little while to see how things went, and I remained for 
             the full time he was here. I should say that I stayed here 
             unpaid, and that it was a great adventure. Every time I 
             thought of leaving, he would suddenly assume a new 
             position, and it was a great good fortune of my life to be 
             along for the ride and to see what happened next.
               Early on, I discovered that my husband was a wonderful 
             teacher. David Barner has written the nicest note about 
             this, and I think he was right on the mark. I can look 
             back and say that his father taught him about fairness, 
             patience, and all the virtues everyone has mentioned 
             today.
               There was a story that Tom's father, who was a superior 
             court judge, could sentence you to death and you would 
             thank him. But when I think back, and what I thought at 
             the time is I'm not sure where his good judgment came 
             from, how he understood the limits of power--and there are 
             enormous limits to power--that we must all work together 
             and how much courage he often displayed when defending 
             what he believed was right. Some of it must have been the 
             result of his Jesuit education and his experience as a 
             debater.
               A friend of his is here who knew him and debated with 
             him, and he told me that at 16 he was just a wonderful, 
             great man, even though he was just a young man at that 
             time. I never knew really exactly why he always knew the 
             right thing to say and do. Perhaps it was his honesty and 
             his resolve to keep his word. I don't know.
               I think back on our almost 45 years together, and I 
             think of the long meetings that perhaps best displayed his 
             ability to reason with people. One of them was in the late 
             1960s at Shadel Park High School in Spokane. Tom had 
             accepted the challenge of a man, whose name I think was 
             Virgil Gunning, who was opposed to any form of gun 
             control, and he claimed that Tom was for every form of gun 
             control. So Tom agreed to appear at this forum in this 
             local high school, and Virgil ran ads in the newspapers 
             and was able to attract--I think he also ran them on the 
             radio and television--an audience of about 700 people. Tom 
             stood on the stage for 5\1/2\ hours and answered all of 
             Gunning's allegations with reasons that I never would have 
             thought of. There were endless questions in the audience. 
             There were bumper stickers waved about the Hungarians 
             limited their guns and that's why they lost their freedom, 
             something to that effect.
               I can remember Tom saying that he was not for repealing 
             laws that limited a citizen's use of cannons and rockets, 
             that he didn't think you were entitled to have a missile 
             silo right there in the backyard of your house.
               At first, the audience was hostile, but at the end, 
             Gunning made a fatal mistake. He asked everyone to stand 
             up and then he pleaded for money to pay for the hall and 
             the ads, and people who were already standing, they just 
             walked out.
               I had spent a good deal of my life overseas at this 
             time, and I was mesmerized to watch this. It wasn't like 
             dealing with the Pakistanis or going to school there or 
             living in Greece or Egypt, as I had done. It was something 
             very different.
               I learned over the years, and I was able to see Tom 
             reason with all kinds of people and with all kinds of 
             interesting arguments. He could always see another side to 
             something. I got to see him in action with Presidents and 
             politicians on both sides of the House and both sides of 
             the Capitol. He was somehow able to walk others through 
             their demands and show them where they were asking too 
             much and where they might be right. He was not afraid to 
             take a position that a constituent or a colleague might 
             oppose and explain why.
               I can remember the Pacific power administrator who came 
             to get more goodies being told that it was time that the 
             Pacific Northwest perhaps limited its demands and look in 
             other directions to get more power. I'm sure they are 
             still here asking for it. But at the time, they agreed.
               He was a man of principle. He was not afraid to 
             compromise. He believed there was honor in compromising. 
             When he nearly lost the election in 1980, he did not 
             retreat to the life he enjoyed as chairman of the House 
             Agriculture Committee, as many would have done. Instead, 
             he became Democratic whip and started his climb up the 
             leadership ladder.
               I was appalled. I had gotten used to his position as 
             chairman, and I was on good terms with the staff. 
             Suddenly, all of these people were going to lose their 
             jobs. We couldn't take all of them with us to the whip 
             office. The budget was not that large. So I got used to 
             it, and then he moved up the ladder again and again.
               It would have been the easy thing to stay as chairman of 
             the Agriculture Committee, and I should have known that 
             this extraordinary man was destined for extraordinary 
             things. I'm afraid I've kept you too long. Thank you so 
             much for coming to salute the life of a great man.
               Thank you.

             Reverend Conroy. Dear Lord, as we close our time together, 
             send Your Spirit of peace and consolation upon us, who 
             mourn the loss of the honorable former Speaker of the 
             House, Tom Foley.
               He was a glowing example, an icon of what it means to be 
             a man for others. His decades of service to his home State 
             of Washington, and to our great Nation, will be long 
             appreciated by those whose lives are forever blessed by 
             his life's work and dedication.
               May Your angels come to greet our beloved Tom, and may 
             those who mourn him here be consoled with the knowledge 
             that for those who love You, everything is turned to good.
               Amen.
                 
                              MASS OF CHRISTIAN BURIAL

                                         FOR


                                THOMAS STEPHEN FOLEY
                           March 6, 1929-October 18, 2013
                                           
       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>     
 
 
 
Courtesy EA Photography, Anaheim, CA
 


                  Holy Comforter St. Cyprian Roman Catholic Church
                             1357 East Capitol Street SE
                                 Washington DC 20003

                                  October 25, 2013

                           Rev. Msgr. Charles Pope, Pastor
                        Rev. Fr. Michael Bryant, Concelebrant
             Thomas Stephen Foley was born in Spokane, Wash., March 6, 
             1929; the son of Judge Ralph and Helen Higgins Foley. His 
             inspiration for a life of public service came early, 
             bolstered by discussions around his family dinner table 
             and his education at Gonzaga Preparatory School in 
             Spokane, Wash. (1946), Gonzaga University and the 
             University of Washington in Seattle, Wash. (A.B. 1951, 
             J.D. 1957). As an appointed deputy prosecuting attorney in 
             Spokane County (1958), Mr. Foley said he had more power 
             there than any other time in his life. The use of that 
             power was tempered by the example of his father who, as a 
             Superior Court judge for Spokane County, was lauded for 
             his evenhandedness and courtesy.

             Mr. Foley was also a lawyer in private practice; 
             professor, Gonzaga University Law School, Spokane, Wash., 
             1958-1959; an appointed assistant attorney general, State 
             of Washington, 1960; and assistant chief clerk and special 
             counsel of the Committee on Interior and Insular Affairs 
             of the United States Senate, 196l-1963. He was elected as 
             a Democrat to the Eighty-ninth and to the fourteen 
             succeeding Congresses (January 3, 1965-January 3, 1995); 
             chairman, Committee on Agriculture (Ninety-fourth through 
             Ninety-sixth Congresses); majority whip (Ninety-seventh 
             through Ninety-ninth Congresses); majority leader (One 
             Hundredth and One Hundred First Congresses); Speaker of 
             the House of Representatives (One Hundred First through 
             One Hundred Third Congresses); awarded the title Knight 
             Commander of the British Empire by Queen Elizabeth II in 
             1995; Ambassador to Japan, 1997-2001; Germany gave him its 
             Order of Merit; France, membership in the Legion of Honor; 
             and Japan, the Order of the Rising Sun with Paulownia 
             Flowers, Grand Cordon. He died on October 18, 2013, in 
             Washington, D.C.

             Mr. Foley was married in 1968 in Columbo, Ceylon to 
             Heather S. Strachan, his unpaid Chief of Staff throughout 
             his life. Heather survives him as does a sister, Maureen, 
             and her husband Richard Latimer of Santa Rosa, California; 
             and their children Elizabeth Ann Garbocci of Ukiah, 
             California; Kathleen Ely of Martinez, California; Carolyn 
             Latimer of Santa Rosa, California; John Latimer of Elk 
             Grove, California; and Mark Latimer of Petaluma, 
             California; a sister-in-law Jill Penelope Strachan and her 
             partner Jane Hoffmann.
             ORDER OF MASS

 
 
 
                               Words by Robert Greenstein
 
                             Entrance Hymn--Amazing Grace
                                            Opening Rites
 
                    Old Testament Reading     Ecclesiastes 3, 1-11      Jill P. Strachan
 
                    Responsorial Psalm        Pss. 23                   Kathy Richburg, Cantor
 
                    New Testament Reading     I Corinthians 13, 1-13    Robert Shrum
 
                    Gospel Reading            John 14, l-6              Deacon Richard Walker
 
                                                   Eulogy               Monsignor Charles Pope
 
                         General Intercessions Response: Lord, hear our prayer
 
                                                      Liturgy of the Eucharist
 
                                            Preparation of the Altar and Gifts
 
                                             Gift Bearers               Joseph Powell
                                                                        Snow Juanpere
 
                                   Offertory Song: Handel               Kathy Richburg, Cantor
                                         ``Come Unto Me''
 
                                          Communion Hymn:               Kathy Richburg, Cantor
                               ``I Am the Bread of Life''
                                            ``Ave Maria''
 
                                                   Final Commendation and Farewell
 
                                          Recessional: Bach ``Jesu Joy of Man's Desiring''
 

             Thanks and Acknowledgement

             The family of Thomas S. Foley would like all of you to 
             know how grateful they are for your gifts, support, 
             visits, and cards during this time of loss. Your 
             expressions, help and concern are a remarkable testament 
             to the full life Tom Foley led and the number of people he 
             touched during his long years of public service. The 
             family hopes his legacy will not wither or fade.

             Thank you.
           
 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
 
 
Courtesy Spokesman Review
 

             Bob Greenstein. Heather, thank you for asking me to speak 
             today about one of the most decent people I have ever met. 
             I am honored to be here.
               Tom Foley was a giant. I'm not referring to his physical 
             stature, although he was surely a tall and imposing 
             figure.
               Nor am I referring just to his extensive and far-
             reaching policy accomplishments, which I will speak about 
             in a minute and which improved the lives of literally tens 
             of millions of people all over this country.
               I'm really referring, most of all, to him as a human 
             being. He was a giant of a person.
               Indeed, I think his personal qualities were a key part 
             of what made him so effective as a legislator. He was the 
             epitome of decency. He was always willing to listen to and 
             consider the views and concerns of others, regardless of 
             their background, their party, or their politics. Indeed, 
             he sought out other views and perspectives. He felt a 
             strong sense of responsibility to delve deeply into 
             issues, educate himself thoroughly about them from every 
             angle, and find and pursue the best course for the 
             country. For all of these reasons, he was enormously 
             respected, and enormously trusted, across the political 
             spectrum--in a way that virtually no one in this town is 
             today.
               I first got to know Tom in the 1970s through his work to 
             reduce hunger and malnutrition. Medical teams had gone to 
             poor areas, especially in the Deep South and Appalachia, 
             in the 1960s, and they found shocking conditions, 
             including rates of hunger-related diseases among children 
             like those in some Third World countries.
               Our policymakers responded, and they made striking 
             progress. George McGovern and Bob Dole received lots of 
             attention for their work on this in the Senate. But, even 
             though it's less well known, the pioneering work that Tom 
             did in the House of Representatives was every bit as 
             consequential. And his task was often more challenging in 
             writing landmark legislation and steering it through the 
             more conservative House.
               The results of this work were stunning. The medical 
             teams that found such shocking conditions in the late 
             1960s went back to the same poor areas after Tom and his 
             colleagues had done their work, and the doctors found 
             dramatic improvement. Child malnutrition had become rare. 
             As the doctors wrote: ``In the Mississippi Delta, in the 
             coalfields of Appalachia and in coastal South Carolina . . 
             . visitors ten years ago could quickly see large numbers 
             of stunted, apathetic children with swollen stomachs and 
             the dull eyes and poorly healing wounds characteristic of 
             malnutrition.''
               The doctors then observed that such children had now 
             become rare. And the doctors gave the main credit to the 
             legislation that Tom had helped to write and to enact.
               That history points up another Foley trademark. He 
             worked behind the scenes to get results without calling 
             attention to himself.
               How rare it was--and is--to have as gifted and far-
             sighted a political leader, for whom it was virtually 
             never about him. It was always about the issues and about 
             his colleagues, both on and off Capitol Hill, with whom he 
             worked so collegially. When he became Speaker of the 
             House, his main focus continued to be, first and foremost, 
             what was best for the country and his fellow Americans, 
             not what was best for him or his party in the next 
             election. How fortunate we were that America had such a 
             leader.
               He was a man of courage, and it was courage that 
             explains his defeat in 1994 after 30 years in the House 
             that he loved. He stood up and helped lead on two very 
             tough issues, even though he knew that it would hurt him 
             on Election Day--support for an assault weapons ban and 
             opposition to term limits. He felt that it was his duty to 
             lead rather than to hedge in order to cover himself 
             politically.
               He was also the most knowledgeable Member of Congress I 
             have ever known. With his deep intellectual curiosity, his 
             brilliant mind, and his broad sense of responsibility, he 
             delved into issues, and he amassed a depth of knowledge 
             and understanding of them that was unequaled in his time 
             and hasn't been equaled since.
               One day I was walking up the steps to the House Chamber 
             at a time Members were about to vote on a complex issue--
             an issue that Tom was not closely associated with. About a 
             dozen Members were walking up those steps when, suddenly, 
             they turned and walked to a corner of the steps, where Tom 
             was standing. They had spotted him, and they immediately 
             asked him to explain the issue on which they were about to 
             vote, to outline the pro's and con's. They knew that he 
             had done his homework and, of course, he gave them what 
             they needed.
               In a column about Tom last week, the eminent journalist 
             Al Hunt wrote about the time when Al was a young reporter 
             covering the farm bill for the first time in the 1970s. He 
             was baffled by some of the intricate farm policy issues, 
             and he asked Tom about them. Tom gave him such a lucid, 
             balanced, pithy summary of the issues that Al adopted the 
             summary as his own and used it in his story. Al wrote that 
             it was the one time in his career that he might have been 
             accused of plagiarism--but that there was no way that he 
             could improve on Tom's lucid, fair, balanced explanation 
             of the issues.
               I'm sure that many of you have read numerous 
             remembrances of Tom over the past week. They spoke of his 
             integrity, his thoughtfulness, his learnedness, his 
             respect for Members of both parties, his graciousness and 
             bipartisanship, and his willingness to go the extra mile--
             or many extra miles--to secure the best achievable policy 
             outcome, even if it meant sacrificing a partisan 
             advantage.
               Despite all of the demands on him, he spent countless 
             hours patiently teaching Members, staff, journalists, and 
             others how to analyze issues, how to look at them from 
             several sides, and how to secure the best achievable 
             results. He was a mentor to many, from other Members to 
             young people just starting out; I know, as I was lucky 
             enough to be one of them even though, at the time, I was a 
             young and very green staffer first at a small nonprofit 
             and then at the Agriculture Department. I still think 
             often about the many lessons that Tom taught me and others 
             in the ensuing years about not only how to approach 
             issues, but how to conduct ourselves honorably in trying 
             to achieve better policies.
               Above all, Tom loved the House of Representatives as an 
             institution. No one worked harder or more effectively than 
             he did to make it function in real life, not just on 
             paper, so it would be worthy of the deepest respect. 
             Indeed, Tom revered legislative bodies in general. Tom 
             Mann, the eminent scholar at the Brookings Institution, 
             told me yesterday that Tom Foley received the highest 
             honors from at least six foreign countries, in part for 
             his work in helping their legislative bodies function 
             better as well.
               A few days ago, Bob Michel, the Republican leader of the 
             House while Tom was Speaker, wrote the following about 
             Tom: ``His decency, his honesty and integrity, and his 
             great skill as a legislator are the hallmark of what 
             citizens hope to have in their public servants.''
               I had the privilege of being able to talk to Tom for the 
             last time 15 days ago. When I brought up his tremendous 
             accomplishments in sharply reducing hunger and 
             malnutrition for tens of millions of people over the 
             years, he, modest to the end, waived away the credit. He 
             would only accept credit when I mentioned others with whom 
             he had worked on this. ``Yes,'' he said, ``we were a great 
             team.''
               Speaking of team, it's impossible to think of Tom 
             without thinking of Heather by his side, helping him in so 
             many ways over so many years. I also can't help but think 
             of their companion, their beloved dog Alice.
               To be sure, Thomas S. Foley is no longer with us 
             physically. But, in a way, he lives on inside all of us. 
             We will never forget his decency, his kindness, and the 
             wisdom he imparted to us. We will never forget what he 
             meant to the country, and to our own lives.
               His was a life truly worth celebrating. Today, at a time 
             of deep political cynicism, his life stands out as a 
             beacon that reminds us, that shows us, that this country 
             can produce dedicated and effective leaders who make this 
             Nation a much better place for millions upon millions of 
             their fellow Americans, and who truly achieve greatness.
                 
                                           
       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
 
 
 
Courtesy EA Photography, Anaheim, CA
 


             Memorial Service for

                                Thomas Stephen Foley

             March 6, 1929-October 18, 2013

                                 St. Aloysius Church
                                 330 E. Boone Avenue
                                     Spokane, WA


             November 1, 2013

             Prelude
                          Dr. Janet Satre Ahrend, Organist

                          Gonzaga University Concert Choir
                          Dr. Timothy Westerhaus, conductor
                           Anna Frisch, student conductor

                                  ``Simple Gifts''
                                  arr. Dale Warland

                            ``Calling My Children Home''
                                arr. Joseph Jennings

             Presentation of the Colors
                                     ROTC Cadets
                                    Please stand

             Procession
                                    Cross Bearer

                                   Candle Bearers

                                   Flower Bearers
                      Kathleen Ely, Sally Jackson, Betty Lukins

                                  Assisting Priests
               The Reverend: Richard Case, S.J., Stephen Kuder, S.J.,
                      Greg Vance, S.J., Bernard Coughlin, S.J.,
                                Frank Costello, S.J.

                                      Presider
                      The Most Reverend Blase J. Cupich, S.T.D.

                       Procession Song: ``For All the Saints''
                                     Wm. W. How

                   For all the saints who from their labors rest,
                    Who you by faith before the world confessed,
                        Your Name, O Jesus, be forever blest.
                                 Alleluia, Alleluia!
                        O blest communion, fellowship divine!
                      We feebly struggle, they in glory shine;
                      Yet all are one within your great design.
                                 Alleluia, Alleluia!

                      The golden evening brightens in the west;
                    Soon to the loyal faithful comes their rest;
                       Sweet is the calm of Paradise so blest.
                                 Alleluia, Alleluia!

                    But lo! there breaks a yet more glorious day;
                     The saints triumphant rise in bright array;
                        The King of Glory passes on his way.
                                 Alleluia, Alleluia!

               From earth's wide bounds, from ocean's farthest coast,
               Through gates of heav'n streams in the countless host,
                       Singing to Father, Son, and Holy Ghost.
                                 Alleluia, Alleluia!

             Welcome
                 Fr. Richard Case, S.J., Pastor, St. Aloysius Parish

             Opening Prayer
                       Bishop Blase Cupich, Diocese of Spokane

             Liturgy of the Word
                  First Reading: Old Testament, Ecclesiastes 3:1-11
                                    H.T. Higgins
                                  Please be seated
                            Responsorial Psalm: Psalm 23
                   Refrain: ``Shepherd Me O God, beyond my wants,
                      beyond my fears, from death into life.''
                     Sherry Fischer, Cantor, St. Aloysius Parish
                    Steve Schaubel, Pianist, St. Aloysius Parish
                       Jazz Choir, Gonzaga Preparatory School
                         Eric Moe, Trumpet, Spokane Symphony
                      Cheryl Carney, Cello, Gonzaga University

                           Second Reading: New Testament,
                         2nd letter of Paul to Timothy 4:6-8
                                    John Latimer

                     Gospel Acclamation (sung): Celtic Alleluia
                                    Please stand

                             Gospel Reading: John 14:1-6
                   Greg Vance, S.J., Superior, Manresa Community,
                             Gonzaga Preparatory School

                                       Homily
                Steve Kuder, S.J., Rector of the Jesuit Community at 
                                 Gonzaga University
                                  Please be seated

                               Prayers of the Faithful
                  Thayne McCulloh, President of Gonzaga University
               and Al Falkner, President of Gonzaga Preparatory School
                                    Please stand

             Speakers
                    Introduced by Senior Judge Justin Quackenbush
                                  Please be seated

             Congregational Hymn
                              ``America the Beautiful''
                                    Please stand
                           O beautiful for spacious skies,
                              For amber waves of grain,
                            For purple mountain majesties
                              Above the fruited plain!
                                  America! America!
                             God shed his grace on thee,
                         And crown thy good with brotherhood
                              From sea to shining sea.

                            O beautiful for pilgrim feet
                           Whose stern impassioned stress
                           A thoroughfare of freedom beat
                               Across the wilderness!
                                  America! America!
                             God mend thine every flaw,
                          Confirm thy soul in self-control,
                                 Thy liberty in law.

                            O beautiful for heroes proved
                                In liberating strife,
                       Who more than self their country loved,
                              And mercy more than life!
                                  America! America!
                               May God thy gold refine
                           Till all success be nobleness,
                               And every gain divine.

                            O beautiful for patriot dream
                             That sees beyond the years
                            Thine alabaster cities gleam
                              Undimmed by human tears!
                                  America! America!
                             God shed his grace on thee,
                         And crown thy good with brotherhood
                              From sea to shining sea.

             Our Common Prayer
                                  The Lord's Prayer

             Remarks and Final Blessing
                                 Bishop Blase Cupich
             Recessional
                          Song: ``Lord of All Hopefulness''
                                 Jan Struther (1931)

                      Lord of all hopefulness, Lord of all joy,
                 Whose trust, ever childlike, no cares can destroy,
                    Be there at our waking, and give us, we pray,
              Your bliss in our hearts, Lord, at the break of the day.

                      Lord of all eagerness, Lord of all faith,
                Whose strong hands were skilled at the plane and the 
                                       lathe,
                    Be there at our labors, and give us, we pray,
             Your strength in our hearts, Lord, at the noon of the day.

                     Lord of all kindliness, Lord of all grace,
                 Your hands swift to welcome, your arms to embrace,
                    Be there at our homing, and give us, we pray,
                Your love in our hearts, Lord, at the eve of the day.

                      Lord of all gentleness, Lord of all calm,
                 Whose voice is contentment, whose presence is balm,
                   Be there at our sleeping, and give us, we pray,
                Your peace in our hearts, Lord, at the end of the day

             Organ Postlude

                           Please silence mobile devices.
                                No flash photography.
                 Reception to follow in the Cataldo Hall Globe Room
             Thomas Stephen Foley represented the best of Eastern 
             Washington and our nation--and perhaps the best of a 
             bygone era, the latter half of the 20th century. His 
             decency, fairness and commitment to bipartisan politics 
             are legendary. And the source of his values is no mystery: 
             Tom learned from his father Ralph Foley, who gave a 
             lifetime of service to Spokane County.

             Tom Foley was born on March 6, 1929, in Spokane, 
             Washington. Ralph Foley, a Gonzaga graduate and first in 
             his family to attend college, served as Spokane County 
             prosecutor in the 1930s, then became a superior-court 
             judge. Helen Foley, Tom's mother, was a teacher. Foley 
             grew up during the Great Depression, and in ``Honor in the 
             House,'' co-written by Foley and Jeff Biggs, Foley recalls 
             his father explaining why lines of men stood waiting for 
             the coffee and sandwiches that the sisters handed out 
             behind Sacred Heart Hospital.

             As thousands of Spokane children have done, Tom spent 
             several summers at the YMCA's Camp Reed. He graduated from 
             Gonzaga Prep in 1946, then developed into a national-
             caliber debater at Gonzaga University. During college, he 
             worked summers at the Kaiser Aluminum mill, where he first 
             learned of the lives and concerns of working people. He 
             transferred to the University of Washington as a senior, 
             and always acclaimed the value of his Jesuit education. 
             After earning his A.B. in 1951 and J.D. from the 
             University of Washington School of Law in 1957, Foley 
             taught constitutional law at Gonzaga School of Law in 
             1958-59.

             He began his political career as an assistant state 
             attorney general, and in 1961 moved to the other 
             Washington as special counsel to Washington Senator Henry 
             M. ``Scoop'' Jackson. His mentor urged him to run for 
             Congress in 1964. It was a landslide year for Democrats 
             and Foley won. He was 35. Foley held a reception for the 
             man he'd defeated, Walt Horan, a 22-year veteran of the 
             House. This was an early sign of Foley's passion for 
             fairness and compromise. Reflecting Eastern Washington's 
             strengths, Foley gained committee assignments in 
             agriculture and the interior.

             In 1968, Tom Foley wed Heather Strachan. The pair had met 
             in Scoop Jackson's office; they married in Ceylon, with 
             elephants and fanfare. Heather became her husband's 
             indispensable advisor and assistant; and Foley rose 
             steadily within the U.S. House of Representatives. Within 
             10 years of his election, he assumed chairmanship of the 
             Agriculture Committee. He was 45 and the youngest member 
             to chair a major committee since 1900. Majority whip, 
             majority leader, and, in June 1989 during the One Hundred 
             First Congress--Speaker of the House.

             After growing up in the rolling Palouse, after stretching 
             his young imagination in the wide-open reaches from 
             Davenport to Dayton, after caring for constituents from 
             Republic to Colfax--Tom Foley was the third most powerful 
             leader in the United States and the first speaker from 
             west of the Rocky Mountains.

             Under his leadership, the House worked with order and 
             civility. Foley said his proudest achievements were farm 
             bills, hunger programs, civil liberties, environmental 
             legislation and civil rights bills. When he left Congress 
             in 1994, his reach was international. Queen Elizabeth II 
             awarded him the title Knight Commander of the British 
             Empire in 1995. From 1997 to 2001, he served as ambassador 
             to Japan.

             Spokane's greatest son died on Oct. 18, 2013, in 
             Washington, D.C.

             A man of intellect and graciousness, he retained his 
             international renown. The Guardian, Great Britain's 
             leading liberal newspaper, paid this tribute upon his 
             death: ``Tom Foley was the last House Speaker of a 
             vanished age, when compromise was not a dirty word on 
             Capitol Hill, when Congress functioned more or less as it 
             was meant to; and respect or even affection for one's 
             opponent was not regarded as a near-mortal sin. His 
             defining qualities were patience, civility and a sense of 
             measure.''

             Thanks and Acknowledgment
               The family of Thomas S. Foley would like to express its
                gratitude to Gonzaga University, Gonzaga Preparatory
              School and St. Aloysius Parish for their help in creating
                    and coordinating this service, and for their
                  gracious hospitality in providing a warm welcome
                and reception to all who come to mourn and honor the
                            life and legacy of Tom Foley.

                                     Thank You.
             Stephen R. Kuder, S.J. Rector, Jesuit Community, Gonzaga 
             University. We've just heard that there is time for 
             everything under heaven: ``A time to give birth, and a 
             time to die; A time to plant, and a time to uproot the 
             plant. A time to weep, and a time to laugh; a time to 
             mourn, and a time to dance.'' St. Paul today adds: ``A 
             time to compete well, and a time to finish the race.''
               And here's Jesus with the bottom line: ``There is a time 
             to fear and a time to trust.'' And this seems to be Jesus' 
             message to us this morning: There is a time for 
             everything. And this is our time to move beyond the fear 
             we all harbor in the face of death and to trust God.
               The bottom line of biblical faith is trust. Trust in 
             God. Whenever we see the words ``faith'' or ``belief'' in 
             the Bible, whether in the Hebrew or the Christian 
             Scriptures, we can't go wrong if we read ``trust.'' Faith 
             in God means trust that God is faithful to his promises. 
             Trust is what biblical faith is all about. Trust in a 
             faithful God.
               Someone has taken the trouble to count all the times the 
             Bible admonishes us: ``Do not be afraid.'' The number 
             comes to about 350 times. The Bible is saying over and 
             over again: ``Trust God and do not fear!'' If trust God is 
             our choice, the question becomes: When are we going to do 
             it? When are we going to trust God? As the first resort or 
             the last? I heard a story of an elderly woman who was 
             greatly disturbed by her many troubles, both real and 
             imaginary. Finally she was told in a kindly way by her 
             family, ``Grandma, we've done all we can do for you. 
             You'll just have to trust God for the rest.'' A look of 
             utter despair spread over her face as she replied, ``Oh, 
             dear, has it come to that?'' Well, it always comes to 
             that, doesn't it, so we might as well begin with that! 
             Begin with trust in God! The way the Bible does.
               But we may object that we are busy people. Very busy. 
             Busy with the law, with government, with politics, with 
             education. But beware--I'm told that the Chinese character 
             for busy also means heart killing. Busyness can become 
             heart killing. We can all do a body count.
               So the Bible offers us a radical solution--trust God as 
             a child does its parent. Jesus says it: ``Unless you turn 
             and become like children, you will not enter the kingdom 
             of heaven.'' Psalm 131 shows us the way to this childlike 
             trust: ``Lord, my heart is not proud; nor are my eyes 
             haughty. I do not busy myself with great matters, with 
             things too sublime for me. Rather, I have stilled my soul. 
             Like a weaned child on its mother's lap, weaned is my 
             soul. I trust in the Lord, now and forever!'' This is the 
             bottom line of biblical faith--Trust in the faithfulness 
             of God.
               But Jesus addresses his disciples: Trust also in me for 
             life beyond death. He says in the Gospel today: ``In my 
             Father's house there are many dwelling places. If there 
             were not, would I have told you that I am going? And if I 
             go and prepare a place for you, I will come back again and 
             take you to myself, so that where I am you also may be.''
               This is Jesus' promise to all of us: for life beyond 
             death, trust in me. And this is why we're here in church: 
             We're being invited to be still and are still moving into 
             the intensity of this promise. This promise which was made 
             to Tom Foley at his baptism and to us as well. After all, 
             that is why Jesus came in the first place.
               Didn't he insist: ``I have come so that you might have 
             life and have it more abundantly''?
               So how should we think of Jesus? Imagine Jesus as a 
             shepherd carrying a lamb on his shoulders: That's how the 
             first Christians in the catacombs, those underground Roman 
             cemeteries, portrayed Jesus in their wall paintings and 
             statues--Jesus as a shepherd. One statue shows him as a 
             young man, strong, well-muscled. With one hand he carries 
             a staff, with the other he seems to be clearing the way 
             ahead of him like a fireman coming out of a burning 
             building. Over his shoulders is a lamb symbolizing the 
             soul of the Christian who has fallen asleep in the Lord. 
             What an amazing portrayal of Jesus in full-rescue mode. 
             He's rescuing us from death, taking us all home to his 
             Father.
               This is bedrock Christian teaching--Jesus comes as the 
             good shepherd and carries Thomas Stephen Foley to safety. 
             The Lord is his shepherd. And ours! This is why we moments 
             ago sang: ``Shepherd me, O God, beyond my wants, beyond my 
             fears, from death into life.'' We trust that Jesus is with 
             us in our deaths so that we may enter the fullness of 
             life.
               James Whitcomb Riley has a poem in which he tells of the 
             death of a worker in a shop. He pictures his fellow 
             workers standing around on the day of his funeral talking 
             about him. One man, after muttering some usual things, 
             with tears in his eyes adds this:

             When God made Jim, I bet you
             He didn't do anything else that day
             But jes' set around and feel good!

               And can't we feel good today remembering this man? Don't 
             we know that God recognizes that goodness just as we do? 
             And on this day when the Church celebrates all saints, God 
             is watching the saints come marching in. And there among 
             them, straight and tall, Tom Foley.

             Governor Jay Inslee. Heather and our friends, it is a 
             great honor to represent 6\1/2\ million Washingtonians in 
             honoring this great titan of democracy, Speaker Tom Foley.
               In my time serving in the next door neighboring 
             district, I very quickly came to understand that America 
             has seldom been graced with a leader with such compassion 
             for his people and such unstinting commitment to a civil, 
             constitutional democracy.
               I don't think you can point to another leader that we 
             have been blessed with in our Nation's history that 
             combines such a strong heart for his people with such a 
             strong backbone for constitutional democracy. That 
             combination of traits has borne us so well, in so many 
             different ways.
               We know well that millions of people across the county 
             have food on their plates because of his tremendous 
             leadership, with Senator Dole and Senator McGovern, to 
             move the food stamp program forward. That was a national 
             success.
               But his compassion for his people right here in Eastern 
             Washington is something I witnessed so much first hand 
             representing people in the Fourth District, next to his 
             Fifth.
               Across this district you will see the monuments to his 
             compassion. From hydroelectric facilities at Grand Coulee, 
             to great opportunities for our tremendous wheat industry, 
             to the thing that struck home to me in the first 3 weeks 
             of my term in Congress, when a farmer up in the Okanogan, 
             an area that the Speaker used to represent before 
             redistricting, asked me what kind of Congressman I was. I 
             said, ``Well, I do my best.'' He said, ``Well, I'll tell 
             you what, Thomas Foley got me these teeth!'' And he popped 
             his teeth out, and said, ``Now that's a real 
             Congressman!''
               This is a man of great compassion, and the Nation has 
             felt that.
               I just want to comment about what I saw, that I hope and 
             I do believe Washingtonians and Americans understand, and 
             that was his commitment to civility and a constitutional 
             democracy. That type of commitment--people who know 
             anything about politics understand--takes courage on 
             occasion. I think people well understand his courage 
             during his last term, when he believed there was a 
             particular provision that, frankly, was extremely popular 
             at the time, of this term limits idea, that the Speaker 
             believed very strongly violated the U.S. Constitution. At 
             great risk to himself and a 30-year career, he stood up 
             for the U.S. Constitution and he was vindicated by the 
             Supreme Court that he was right. This provision that he 
             believed in, was constitutional, and people are well 
             recognizing that in that last 2 years of his career.
               I want to tell you just another little story. If you go 
             to the Mission Ridge Ski Area, in one of their warming 
             huts, you'll see a Wenatchee World front page from 1965. 
             And one of the stories is about Mission Ridge opening.
               Another story on the front page is ``Freshman 
             Congressman Thomas Foley votes against throwing Adam 
             Clayton Powell out of the U.S. House of Representatives.'' 
             It was another vote extremely unpopular but standing up 
             for the principle that our people decide who represent us, 
             not the politicians in the U.S. House of Representatives.
               This is a man who stood for the Constitution and 
             civility, from day one of his congressional career to the 
             last day of his last term, and all those 30 years in 
             between. That's why I say he was a titan of democracy!
               That is why it is so heartwarming to see the Nation 
             embracing Heather, and I hope you can feel this Heather, 
             of the country recognizing that he really represented the 
             best that the State of Washington could offer. Heather, I 
             can tell you that these smiling eyes, and I love this 
             picture of the Speaker, those eyes are going to continue 
             to smile in our memories. Thank you.

             Senator Patty Murray. Thank you all for being here today.
               It's so nice to be in Spokane and see so many friends 
             here to celebrate the life of a man we all loved and 
             admired. Heather, we're all so honored to be with you 
             today, because you simply can't talk about Tom's life and 
             accomplishments without talking about you.
               Everything he stood for and achieved--you did together--
             and I'm so grateful to call each of you a friend.
               Earlier this week, we celebrated Tom's life back in 
             Washington, DC. The service was held in a place called 
             Statuary Hall, which is just a few steps from the Capitol 
             rotunda. The reason we call it Statuary Hall is, of 
             course, the statues. Each State sends two of them to the 
             Capitol--two statues that speak to what each State 
             represents--their history and their identity.
               As we gathered there last week, it seemed like such an 
             appropriate place to remember Tom, because Tom really 
             captured the best of Washington State. He embodied our 
             State's hard-working, honest, Western spirit. And for 30 
             years, just like the statues, we sent him all the way 
             across the country to represent us.
               And once he was there, wow, did he represent us. From 
             his very first term, he wasted no time making his mark. 
             Before you knew it, the junior Congressman elected by 
             wheat farmers was the chairman of the Agriculture 
             Committee. He was majority whip, and then he was Speaker 
             of the House.
               He was, all at once: the local judge's son who shook 
             every hand and answered every question, and a statesman in 
             the truest sense of the word. He was the person who 
             brought the World's Fair to Eastern Washington. He was an 
             honest consensus-builder who Republicans and Democrats 
             both trusted, and he gained stature not because of a 
             relentless thirst for power, but instead, because he was 
             fundamentally decent, because he listened, and because he 
             had a common, personal touch.
               So it was no surprise that earlier this week, as we 
             gathered in Statuary Hall, our country's most powerful 
             figures lined up to honor him: Presidents of the United 
             States, both Republicans and Democrats; Speakers of the 
             House, Republicans and Democrats; foreign dignitaries, 
             former colleagues, and even political opponents. Because 
             even though Tom just thought of himself as the Congressman 
             from Spokane, he was one of them.
               He was a brilliant, courageous leader who belonged in 
             the halls of power and foreign palaces, but at the very 
             same time, he also belonged here in Spokane, with the 
             family and friends and neighbors he represented.
               That's what I'll remember about him. I'll remember him 
             as one of us. I'll remember him as someone I looked up to, 
             literally, it seemed like a couple of feet, when I first 
             came to Congress. And I'll remember him as the powerful 
             Speaker of the House who immediately called me, the brand-
             new, back-bench Senator who'd just been elected. Not 
             because he had to, but just because I was from Washington 
             State, and so was he.
               Thank you.

             Senator Maria Cantwell. I am honored to be here today at 
             St. Aloysius with friends, colleagues, Spokane residents 
             and fellow speakers to pay tribute to a great American.
               A great American who just happened to grow up at 505 E. 
             12th Avenue, Spokane, WA.
               Tom Foley, son of Spokane, was a dedicated legislator, 
             skillful leader, advisor to Presidents, and trusted 
             diplomat.
               He led our country in implementing important legislation 
             like the Clean Air Act, the 1992 Energy Policy Act, and 
             the Family and Medical Leave Act. And he delivered for the 
             Fifth District of Washington--improving the Grand Coulee 
             Dam, promoting Fairchild Air Force Base and really making 
             his mark in agriculture.
               He chaired the House Agriculture Committee for 6 years, 
             helping to modernize the farm and food stamp programs, and 
             passing legislation to reduce trade barriers to American 
             agricultural products around the world.
               As one of his former staff said, ``Tom Foley knew so 
             much about agriculture he could write a farm bill at the 
             drop of a hat, on the back of a matchbox cover.''
               He was the son of Spokane--a young man who went to 
             Washington, DC, with an incredible amount of intellect, 
             common sense, and ample good manners, who seemed to easily 
             figure out how to make Washington, DC, work.
               Tom Foley had the winning combination. Yes, he had a 
             good mentor, Scoop Jackson. But how did he do it? He rose 
             to the highest position in the House of Representatives, 
             Speaker of the House, a feat only 56 Americans had 
             previously achieved in the history of our country. And he 
             did this while representing a district for 30 years that 
             was farther away from Washington, DC, than 98 percent of 
             his colleagues. A district more geographically 
             challenging--larger in square miles--than 94 percent of 
             his colleagues.
               How did he do it? In my opinion it was Tom Foley charm.
               National political reporter Joel Connelly once reported 
             that Tom, on a small plane, was forced to make an 
             emergency landing in a wheatfield. Tom didn't miss a beat. 
             He just got out of the plane and introduced himself to the 
             startled farmer: ``I'm Congressman Foley. Pleased to meet 
             you.''
               A few years ago Tom and I were together in Spokane for 
             the JJ dinner that honored Tom for his lifetime 
             accomplishments. We had both traveled from Washington, DC. 
             By 9 p.m. that night, Spokane time, midnight DC time, I 
             was exhausted. But Tom, at 77 years old, proceeded to get 
             up and give a tour de force speech.
               That night was quintessential Tom Foley, because for me 
             the essence of Tom Foley was great oration, delivered with 
             a constant aura of statesmanship and a wry slice of Irish 
             humor.
               As a new House Member, I loved listening to his stories. 
             About how Tip O'Neill had lost his election for Cambridge 
             City Council because he had forgotten to ask his friend, 
             teacher, and neighbor, Mrs. Sullivan, for her vote. Or how 
             President Lyndon Johnson had mistakenly called Congressman 
             Thomas S. Foley, when he was really looking for Rhode 
             Island Congressman John Fogarty.
               Tom loved to make light in the tense moments that often 
             come with politics. It was like he was reminding himself 
             of the incredible life he was living.
               One of my favorite stories was of a House colleague who 
             came running onto the House floor and asked Tom Foley if 
             there were any reasons to vote no against the bill under 
             consideration. Tom provided several. As his colleague 
             proceeded to vote no, Foley voted yes. His anxious 
             colleague came running back, ``Why are you voting yes, 
             when you told me to vote no?'' Tom Foley replied, ``I 
             didn't tell you to vote no. You asked me if there were any 
             reasons to vote no.'' And then with that wry Foley grin, 
             he said, ``But you never asked me for the reasons to vote 
             yes.''
               Tom knew the intricacies of debate and the power of 
             information. Part of the success came from his incredible 
             staff, who fed him information. Today they are leaders in 
             business, government, and community service throughout our 
             State.
               And there would have been no Speaker Foley without 
             Heather Foley.
               I remember one important meeting of the Committee on 
             Committees where the highest ranking members and chairmen 
             convened for hours to pore over committee assignments, a 
             make or break moment for new Members. As the business 
             meeting was winding down late, close to midnight, Speaker 
             Foley continued to hold court--regaling Members with 
             stories of political lore and good old-fashioned Irish 
             humor. Heather proceeded to walk into the room and with 
             one intonation of her voice said, ``Thomas!!!'' I never 
             saw the Speaker move so fast. He was out of the room in 
             seconds. Every sailboat needs a rudder and for the Foley 
             team that was Heather. She was there for all the voyages.
               Yes. Thomas S. Foley was an orator and statesman. 
             According to the dictionary: A statesman is usually a 
             politician, diplomat, or other notable public figure who 
             has had a long and respected career at the national or 
             international level. There should be an asterisk next to 
             the definition--see Thomas S. Foley, Washington.
               America needs more Tom Foleys.
               That night at the JJ dinner, when Tom Foley was honored 
             for his service to his district and to our country, Sally 
             Jackson, a longtime Spokane Valley activist summed it up 
             the best. She said, ``Tom Foley, you are an absolute 
             wonder and it is so important to me that the legend of Tom 
             Foley lives in the Northwest forever.'' Sally, I couldn't 
             agree with you more. He is a legend. It's important to me 
             too that his story lives in the Northwest and the whole 
             country, forever.

             Congresswoman Cathy McMorris Rodgers. Good morning. To the 
             Senators and Governor of our great State; to the friends 
             and family of Speaker Foley; to the former mayor of 
             Spokane, who also happens to be my wonderful father-in-
             law, Dave Rodgers, and to Tom's greatest adviser, 
             confidant, and lifelong companion, his wife Heather, I am 
             proud to stand beside you today to remember an 
             extraordinary life.
               We remember a man whose 84 years on this Earth were 
             marked by service, by humility, and by a deep compassion 
             for the people and country he so fiercely loved.
               We remember a man who championed principle over party; 
             patience over haste; and people over politics.
               And we remember a man who did what he thought was right, 
             not what he thought was easy.
               As we come together today, bound by a shared reverence 
             for this great man, I am reminded of the words of General 
             George Patton, Jr.: ``It is foolish to mourn the men who 
             died. Rather, we should thank God that such men lived.''
               So, as we celebrate a full life--and the extraordinary 
             man who lived it--let us thank God for the impact Tom 
             Foley had on this world.
               Not only was he the first person west of the Rockies to 
             serve as Speaker of the House--but he brought his Spokane 
             roots all the way from one Washington to another for over 
             three decades.
               Earlier this week, a celebration of his life was held at 
             the U.S. Capitol--and not a single person remarked on his 
             life without mentioning his love of Eastern Washington.
               After all, his leadership helped transform Fairchild Air 
             Force Base into one of the strongest military bases in the 
             country; he modernized Highway 395; he shared his 
             contagious love of the 'Zags and the Huskies; he 
             memorialized his parents with a brand-new library right 
             here on the campus of his alma mater; and he worked with 
             Mayor Dave Rodgers back in 1974 to bring the World's Fair 
             to Spokane, which we now enjoy as the beautiful Riverfront 
             Park.
               Even in his death, he has brought Eastern Washington 
             alive.
               He has inspired me--not only in his death, but in the 
             way he so boldly lived his life--to represent the people 
             of Eastern Washington with honor and conviction and 
             principle.
               He reminds us all that our shared love of Washington 
             transcends party politics.
               In our many visits before the State of the Union, ``Big 
             Tom'' would say to me, ``Cathy, I know the decisions 
             you're asked to make in Congress might be difficult ones, 
             but if you do what you believe in your heart is right for 
             the people back at home, then I know goodness will 
             triumph.''
               Mr. Speaker, I wish I could tell you today that you were 
             right.
               One of my favorite stories about the former Speaker was 
             when his plane made an emergency landing on one of our 
             Northeastern Washington wheatfields. As the plane 
             descended, several farmers, busy tilling the wheat, ran up 
             to the airplane--and out climbed the immaculately dressed, 
             64" giant. Without hesitation, he extended his hand to 
             the farmer and said, ``Congressman Foley. Glad to meet 
             you!''
               To Tom Foley, a stranger was simply a friend he hadn't 
             met yet.
               We will remember his open mind, his infectious 
             personality, and the classic wingtips he wore, even on the 
             farm!
               We will carry with us the lessons he left behind: that 
             you cannot understand a person unless you take the time to 
             listen to them; that you should always put country over 
             party, no matter the issue; and that even a man who 
             decides at the very last minute to run for Congress and 
             runs out of gas en route to file his candidacy can go on 
             to serve as Speaker of the U.S. House of Representatives.
               I've thought a lot about how to measure a life, of how 
             to capture a whole lifetime in just a few words.
               But true giants never leave us.
               Tom Foley will live forever in our sense of wonder, in 
             our compassion for strangers, in the boldness with which 
             we live our own lives, and in the way we love others.
               He reminds us that a full life is not just about what 
             you do with your years on this Earth, but about how you 
             make people feel long after you've left it.
               Mr. Speaker, I may not be able to pull off wingtips in 
             the wheatfields quite as well as you did, but as long as I 
             serve the people of Eastern Washington, I promise to make 
             you proud.
               Thank you.

             Norm Dicks, Representative from Washington.  It's great to 
             be here with so many friends.
               Heather, Tom would have loved the Washington, DC, event 
             and he would have loved this event today. I got to know 
             Tom Foley when he came to the University of Washington Law 
             School in 1965. He was part of a new class that was 
             elected in 1964 in the Johnson landslide. Brock Adams; 
             Lloyd Meads; Floyd Hicks, my predecessor; and Tom Foley 
             all came to the law school, each to make a speech to the 
             law school students. Right then and there I knew this was 
             a brilliant man, a man of great conviction. When we went 
             down to the reception area, he said, ``Young man, I notice 
             you have filtered cigarettes. Could I have one?''
               We both quit, many times. Heather, we quit many times!
               It was just great to be able to work with and rely on 
             Tom Foley. I can remember when he and Phil Burton and 
             others ran the Democratic Study Group. One of the things 
             they really wanted to work on was to try and take the farm 
             bill and combine it with the food stamp program so that 
             Members from large cities would vote for both the farm 
             bill and the food stamp program which has been so critical 
             to people in this country. Tom was the person who mastered 
             this and got the job done.
               One time I had been working with Sid Morrison who's here 
             today and others on the Puyallup Indian Land Claim 
             Settlement. It happened that the day that Tom Foley became 
             Speaker, he was going to go down and have lunch with 
             President Bush.
               So Foley was up there on the dais--he loved to preside 
             over the House of Representatives, and always in a fair 
             and impartial way. So I went up there and I said, ``Tom, I 
             understand you're going to be downstairs with the 
             President for lunch. Would you ask him to sign the 
             Puyallup Indian Land Claim Settlement bill?''
               So 4 or 5 hours later I came back and Tom Foley was 
             presiding over the House again. I went up to him and I 
             asked, ``Well, what did he say?'' He said, ``He can't 
             pronounce it. But he'll sign it.'' And that's how we got 
             the Puyallup Indian Land Claim Settlement through.
               Timing--it was always one of Tom's best attributes.
               Tom was well liked in the Democratic Caucus. There were 
             always some people who would be somewhat critical, but he 
             could sit down and reason with people and explain very 
             difficult issues. I think that was one of his greatest 
             attributes. He was always willing to sit and tell stories 
             and give people his time. He would come into the 
             Democratic caucus and the Cloakroom and sit there with the 
             Members for 20-30 minutes during the day so that people 
             would have a chance to have access to him. I thought that 
             was one of his most wonderful attributes.
               Bob Michel was the Republican leader when Tom became 
             Speaker and they had an amazing relationship. Tom said to 
             Bob Michel, ``We'll have a meeting each week and one day 
             I'll come to your office and the next time you'll come to 
             my office.'' Bob Michel wrote a great op-ed in the 
             Washington Post that talked about the trust between these 
             two individuals. They worked together and they both left 
             the Congress at the same time, but they had an amazing 
             relationship and got a lot done. Tom always believed, as 
             did Senators Magnuson and Jackson, once the elections are 
             over, Democrats and Republicans should work together in 
             the best interests of the American people. I tried to 
             follow in that tradition myself. Tom's civility and his 
             commitment to bipartisanship was really great.
               We talked about the World's Fair in 1974 and this was 
             like the biggest thing that was ever going to happen in 
             Spokane. Tom was very committed to getting the legislation 
             through the House of Representatives, but he was 
             struggling a little bit, having difficulty. And at the 
             same time Warren Magnuson and Scoop Jackson were getting 
             the bill through the Subcommittee on Foreign Relations, 
             then the full Committee and putting out press releases; 
             and then it would go to the Senate floor and another press 
             release.
               Finally I get a call from Tom and he was exasperated. He 
             said, ``Every time you guys put out a press release, the 
             press then comes over and asks me, `How are things going 
             in the House?' and I have to tell them, `Nowhere.' ''
               So finally we get down to the end of the session and 
             we're working on the appropriation and Senator Magnuson is 
             in a conference committee on the commerce-state-justice 
             appropriations bill. And Tom Foley is on the House floor 
             and a miracle happens. He gets the bill passed by 
             unanimous consent.
               Later he told me this story. As Sid (Morrison) and Doc 
             (Hastings) and Cathy (McMorris Rodgers) know, Republicans 
             in those days in the minority had an objector, a person 
             who would stand up and object. But with Tom Foley's great 
             Irish luck, this person who was going to be the objector 
             left the floor. And the reason he left the floor was 
             because his assistant had become the person in the 
             Commerce Department in charge of the Spokane World's Fair! 
             And so he had called his former boss and said ``Whatever 
             you do, get off the floor and let Tom Foley pass this 
             bill.'' So Tom Foley stood up, got unanimous consent, and 
             the bill passed.
                So Tom came running down--it's the only time I ever saw 
             Tom run--toward the middle of the Capitol to the room 
             where they had the conference committees on 
             appropriations. He came running down and said, ``Norm, 
             tell the Senator I got it authorized.'' I said, ``Tom, 
             I'll tell him as soon as I can.'' And that is the story on 
             the Spokane World's Fair.
               That project really did do so much here. Tim Thompson, 
             one of my former staffers who is here with me, and I went 
             out and took a look at the Centennial Trail. This was a 
             project Tom and I worked on together.
               I just had the greatest affection and respect for Tom. 
             He also helped me in my career. He came over during my 
             first campaign and helped me get elected to Congress. I 
             had five opponents in the Democratic Party. When he got 
             there, he said, ``I thought you told me you were 
             unopposed.'' ``Well, Tom, I thought your intelligence was 
             better than that!''
               He also helped me by putting me on the Intelligence 
             Committee where I served for 8 years. And he put me on 
             with the goal that I would become chairman. Well, that's 
             when 1994 occurred, so I didn't become chairman; I became 
             the ranking Democratic member.
               Heather, you did such a fantastic job with Tom and 
             worked with him so closely. Through this long, difficult 
             illness he had, you were there and did an amazing job. And 
             we're just pleased to be with you today here in Spokane, 
             Washington, where it all started.
               Thank you.

             Michael Price, Superior Court Judge. My name is Michael 
             Price and I have the difficult task of speaking to all of 
             you on behalf of Tom's family and trying to sum up his 
             extraordinary life in a few short minutes, and I can 
             assure you that is an impossible task. So, rather than a 
             speech that tells all of you about Tom's incredible life 
             of service to this country and this State, we decided as a 
             family to tell you a little about Tom from our perspective 
             and perhaps a few things about him that you did not know. 
             Understanding that to us, Tom was much more than a 
             Congressman, or House Speaker, or Ambassador to Japan; to 
             us, he was an uncle or a brother, a cousin, a brother-in-
             law, a husband.
               Certainly to truly know Tom Foley and the great man that 
             he became, you need to understand where he came from. 
             Tom's mother, my Aunt Helen, was a strong, hard-working, 
             opinionated schoolteacher whose parents came here to 
             Eastern Washington in the late 19th century from Ireland. 
             Aunt Helen was taught the virtues of hard work and the 
             importance of loyalty to her family.
               Helen met and married Ralph Foley and Tom arrived in 
             1929. My uncle Ralph was a lawyer, then a prosecuting 
             attorney, and in 1940 he became a superior court judge, a 
             position he held until 1974. He was a very thoughtful and 
             reflective man, extraordinarily courteous and polite. As 
             Heather pointed out at Tom's service on Tuesday, it was 
             said that my Uncle Ralph was so diplomatic and so 
             considerate that he could sentence a defendant to death 
             and the defendant would say, ``Thank you, Judge Foley.'' 
             As a kid, I remember Aunt Helen and Uncle Ralph would come 
             over to our house all the time to visit. It would usually 
             be on a Sunday and it was always the same routine. My mom 
             would get tea and some cookies and my Aunt Helen would 
             start to talk and she would talk and she would talk and 
             then she would talk some more and about every 10 minutes 
             or so, she would look up at Ralph and say, ``Isn't that 
             right, Ralph?,'' and he would say, ``That's right, 
             Helen,'' and then my Aunt Helen would talk some more.
               Now we all hear in the news stories about somebody in 
             Washington, DC, who engaged in a seemingly endless 
             filibuster. Well, I'll tell you what, when I was 10 years 
             old, I didn't know what a filibuster was called, but I 
             know now that my Aunt Helen invented it.
               These are the two amazing people who raised Tom, who 
             taught him to stand firm on his beliefs and to always be 
             loyal to your family and to your country and to really 
             listen to what someone is saying.
               Tom was loyal to his family and he always gave back to 
             us. Just like he gave to all of you. Tom always made a 
             point to stay in touch with his parents, his family, and 
             if he was in Spokane, he would almost certainly drop by at 
             some point to see family. It might be to see my Uncle Hank 
             and Aunt Mary Lou or he would call or drop by to see my 
             mother. I vividly remember a day when I was a young and 
             precocious third grader and I went to answer the knock on 
             the front door. I opened the door and it was Tom Foley, at 
             which point I irritatingly yelled to my mother who was up 
             in the kitchen, ``Mom, it's Tom Foley, again.'' I don't 
             know what happened or what was discussed while Tom visited 
             with my mom, but I do remember exactly what happened after 
             he left.
               All of us in the family remember the respect and 
             deference Tom always showed his parents, especially his 
             mother. Here's an example--many years ago, I was dating 
             this very nice girl and things seemed to be getting pretty 
             serious so I thought I better take her to meet Aunt Helen 
             and Uncle Ralph. I called and Uncle Ralph said, ``Come on 
             over, and by the way, Tom's in town so he can meet your 
             friend, too.'' So I drove over and Aunt Helen and Uncle 
             Ralph are there, but no Tom. And Aunt Helen started to 
             talk, and I was getting more nervous by the minute because 
             Aunt Helen was not inclined to wait to tell me if she 
             didn't like the girlfriend, she would just tell me then 
             and there, so we are getting ready to leave and Tom came 
             through the front door. I stood up to walk over to shake 
             his hand, but before I could, my Aunt Helen looked right 
             at Tom and said, ``We've all been waiting.'' And you know 
             it really didn't matter if Tom was the majority whip at 
             that point, he was in trouble.
               Many families have a tragedy at one point or another 
             that they have to work through and my family is no 
             different. All of us were devastated when my mother was 
             killed in a plane crash in 1980 while traveling in India. 
             We didn't think we could go on. We didn't know what to do. 
             Then Tom arrived and stepped in and literally held my 
             family together when we felt like all had been lost.
               When my beautiful cousin Shawn Higgins was taken from us 
             at only 29 years old, Tom was there, and even though he 
             had been up for 24 hours or more, he stayed with the 
             family until almost 3 in the morning praying the rosary 
             for Shawn. Tom was a man who deeply loved and cared for 
             his family, and he demonstrated that to us over and over 
             again. Nobody in the family really thought about Tom as a 
             Congressman or the Speaker of the House, but you know 
             sometimes it just could not be avoided.
               Tom had been the Speaker for a few years, and we had a 
             giant Higgins family reunion which culminated with the 
             entire family traveling to Hartline, WA, where our family 
             roots are.
               Tom and Heather came all the way from Washington, DC, to 
             be with us and we had such a great time, and as the bus 
             that my Uncle Hank had chartered for the family pulled up 
             at the Hartline Park, it literally looked like half the 
             town was there waiting for us. All those folks weren't 
             there to welcome the Higginses back to Hartline. They were 
             there to see Tom. I remember how Tom and Heather were such 
             good sports about it all. They posed for pictures and 
             signed autographs and Tom took the time to talk to, I'm 
             quite sure, every single resident of Hartline, WA. Toward 
             the end of the day, Heather and my Aunt Mary Lou and Tom's 
             sister Maureen and I took a walking tour of Hartline. We 
             went to the old house, we looked at the grain elevators 
             and in about 6 minutes, we had pretty much seen the entire 
             town. It was so nice to talk to Heather and Maureen and 
             Mary Lou, and we all got on the bus and headed back to 
             Spokane. As I sat down in the bus next to my youngest 
             daughter who was about 5 at that time, well, she waited 
             until we were down the road aways and she turned to me and 
             asked, ``Are you mad, Daddy?,'' and I said, ``No, Honey, 
             why would I be mad?,'' and she said, ``Because none of 
             those people wanted to take their picture with you.''
               It never seemed like any of this went to Tom's head at 
             all. He really was a man who literally would give you the 
             shirt off his back, and by the way, that shirt would be 
             matched up with a perfect tie, sport coat and pocket 
             scarf. I had the pleasure of talking to my cousin H.T. 
             Higgins earlier this week, and we exchanged memories about 
             Tom and talked about the family. We agreed that no matter 
             how important Tom became on the world scene, he was 
             probably the most grounded and genuine person we had ever 
             known. He didn't take himself too seriously. The Tom we 
             all knew was really humble and unpretentious.
               About 12 years ago, the U.S. District Courthouse in 
             downtown Spokane was renamed the Thomas S. Foley 
             Courthouse, and there was a very nice ceremony at the Fox 
             Theatre to honor Tom. Quite a few members of the family 
             came. My sister and I waited around a bit until the swarm 
             of people, who all wanted to congratulate Tom, dwindled 
             somewhat and then my sister mentioned to Tom what an 
             incredible honor this was to have the courthouse named 
             after him since Federal buildings were rarely, if ever, 
             named after a living person. To which Tom leaned over and 
             in a somewhat hushed voice said, ``I'm pretty sure they 
             thought I was already dead.''
               That's the Tom Foley we knew. Never taking himself too 
             seriously, but at the same time, his commitment to this 
             State, this Nation, and from where I stand, his family, 
             was really quite remarkable.
               A few years ago, I was flipping through the TV channels 
             one night and here was this interview with Tom. It was 
             just fascinating. The interviewer was asking Tom about all 
             the U.S. Presidents he had worked with over the years and 
             what his impressions were. Tom talked about working with 
             everyone from President Johnson through President Clinton 
             and he told that great story about President Johnson 
             hanging up the phone on him, because the White House 
             operator mistakenly got Tom on the phone instead of a 
             Congressman from Rhode Island, and Tom said the President 
             uttered a string of expletives at him that would make a 
             longshoreman blush.
               Then the interviewer asked if Tom had ever worked with 
             President Kennedy and Tom said, ``No.'' He was elected to 
             Congress in 1964 after President Johnson took office. But 
             he was working for Senator Jackson during the Kennedy 
             administration and one day the Senator told Tom that he 
             was going over to the White House to meet with the 
             President and would Tom like to come along and Tom jumped 
             at the chance, and the next thing he knew he was standing 
             in the oval office with President John F. Kennedy.
               The interviewer asked, ``What was that like, to meet 
             President Kennedy?,'' and Tom said the only way to 
             describe it was that it seemed like everyone in the room 
             was in black and white, and President Kennedy was in 
             Technicolor. Now it seems ironic that Tom himself would so 
             perfectly sum up how we saw him--a man who selflessly gave 
             to his Nation, to this State, and to his family. And who 
             we will always remember--in Technicolor.

             Heather Foley. Thank you, Bishop Cupich. I so appreciate 
             your being here to honor and celebrate Tom's life. Thank 
             you so very much, Father Case, for your warm welcome. And 
             thank you so much, Father Kuder, for your Homily. Thank 
             you, Father Vance, for reading the Gospel. I have to also 
             thank our longtime friends, Father Coughlin and Father 
             Costello, who were so helpful to both of us over the 
             years. I think I must have called Father Costello 
             countless times to say we need an intern, please help! And 
             he always did. Thank you, President McCulloh and President 
             Falkner, for your prayers of the faithful.
               And, of course, Judge Quackenbush is owed a special 
             thanks for organizing this memorial service. Without him 
             it wouldn't have happened. I so appreciate his help and 
             work.
               I feel that today I am back in Spokane among old, old 
             friends. It's so nice to be back here. These friends 
             include Governor Inslee, Senator Patty Murray, Senator 
             Maria Cantwell, and Norm Dicks who spoke in Washington, 
             DC, and here in Spokane. You've all been wonderful friends 
             over the years. Thank you, Congresswoman Cathy McMorris 
             Rodgers, who recently wrote about the difficulties of 
             balancing life between Washington, DC, and the Fifth 
             District, and being a member of the leadership. I very 
             much appreciated her resolution celebrating Tom's 
             achievements.
               Last, I want to thank family members Judge Michael Price 
             and John Latimer for their wonderful remarks. I learned a 
             great deal more about Tom and his family. I particularly 
             appreciated the characterization of his mother who 
             certainly could talk and had an eye for detail.
               I want to say a few words about my husband. As you 
             probably know, I worked for him for years as an unpaid 
             staffer. I did not plan to do this when I married him in 
             1968. I had some vague idea that I might be a trial lawyer 
             or work in a law firm. I knew I couldn't be a lobbyist--
             that was an obvious thing I couldn't do and didn't want to 
             do.
               Somehow after I graduated from law school and passed the 
             bar, I yielded to my husband's complaints about this and 
             that in the office, so I would come in and help for a few 
             hours. Of course, the few hours turned into days, then 
             into weeks, then into months, then into years. Eventually 
             I did become his chief of staff; but before that I always 
             had some title, like assistant to the Congressman. I can't 
             quite remember what they all were, but I kind of worked my 
             way up!
               At first, I was allowed to hire a secretary and then he 
             appropriated her as his appointments secretary. Then I was 
             allowed to induce a few other people to come work for us. 
             We had a great staff and we had a great time and we 
             learned so much.
               Early on, anybody who knew him realized he was a 
             wonderful teacher. People have written to me since he died 
             to tell me how much he taught them. I can certainly say 
             the same for myself. I have always wondered how he knew so 
             many things. I can look back and say that his father 
             taught him about fairness, patience, and all the virtues 
             everyone else has mentioned today. And his mother 
             certainly taught him to be a Democrat. But I'm not sure 
             where his good judgment came from; maybe from all those 
             discussions with his father, maybe from his Jesuit 
             education. I have to say he just loved coming to visit 
             with the Jesuits here at Gonzaga--it was always a treat. 
             And when I got to come with him, I felt the same way.
               I never really knew exactly how he knew to do the right 
             thing, say the right thing, and to be the kindest of all 
             men. Perhaps it was his honesty, his principles, and his 
             resolve to keep his word. I still don't know.
               I think back on our almost 45 years together and I think 
             of the long meetings that perhaps best displayed his 
             ability to reason with people. One was in the late 1960s 
             in Spokane at Shadle Park High School. He accepted the 
             challenge of a man, whose name I believe was Virgil 
             Gunning, to defend his position on gun control. Mr. 
             Gunning was against every law that limited the use of guns 
             and claimed Tom was in support of every law to limit the 
             use of guns. He ran ads in the newspaper and on 
             television, and was able to attract an audience on a 
             weekday night of about 700 people. Tom stood on the stage 
             for 5\1/2\ hours in the evening and answered all of Mr. 
             Gunning's allegations. There were also endless questions 
             from the audience, and I remember Tom saying he was not 
             for repealing laws that limited a citizen's use of 
             cannons, rockets, and missiles in their backyards. At 
             first the audience was hostile but at the end Mr. Gunning 
             made one mistake. He had everyone stand up, and then he 
             asked them for money to defray the cost of renting the 
             high school's auditorium and the ads. The audience just 
             walked out! It was amazing.
               I had spent a good deal of my life overseas at that 
             time. I had lived in Pakistan, Greece, and Egypt but I had 
             never functioned in a political environment. Even though I 
             had known Tom for 5 years, I had never watched him face a 
             big audience like that.
               I was impressed, and I learned over the years that 
             watching Tom talk to so many people with endless patience 
             and understanding--it was just part of him. That's what he 
             did. I also learned so much from watching him talk to 
             Presidents and politicians on both sides of the House and 
             both sides of Capitol Hill. He was somehow able to walk 
             others through their demands and show them where they were 
             asking too much and where they might be right. He could 
             always see the balance of things. He was not afraid to 
             take a position that a constituent or a colleague might 
             oppose and explain why he felt the way he did. He was a 
             man of principle who was not afraid to compromise. He felt 
             there was honor in compromising.
               And of course there were the stories. Always the 
             stories. You've heard some of them today. I think 
             sometimes I heard them too many times. But he loved 
             telling them and they were funny. I had the feeling 
             listening to President Clinton talk about him the other 
             day that Tom had told him all kinds of stories including 
             the ones about the Fifth District.
               When Tom nearly lost the election in 1980, when 
             President Reagan was elected, I had never seen him so 
             happy to win. He had thought he was going to lose.
               He was then chairman of the House Agriculture Committee 
             and I thought we would go back and he would be chairman 
             again. He had been chairman for 6 years; I knew all the 
             staff and we all worked well together. Well, imagine my 
             surprise when he didn't stay there; he moved up the ladder 
             and became the majority whip.
               I have to say I was appalled. We had a much smaller 
             budget than with the House Agriculture Committee; the 
             quarters were without windows, except in his office. It 
             was cramped and it was a whole new life. I didn't know all 
             these people in the Capitol.
               I had thought at the end of 1980 that I would go out and 
             get a real job, one that paid you! But, no, I should have 
             known better.
               I should have known that this extraordinary man was 
             destined for extraordinary things, that there was still 
             more adventure for him to pursue and for me to come along 
             and watch. So, there I was and along I went. What a 
             journey! How lucky I was to be there to see him and help 
             him along the way.
               I'm afraid I have kept you too long. Thank you so very 
             much for coming to salute the life of a great man.
               Thank you.

                                       [all]
</pre></body></html>
